                                                                                     Semiannual Report to Congress




    A Message from the Inspector General
    The Social Security Administration (SSA) endeavors to deliver
    services that meet the changing needs of the American public,
    always operating with the mission to ensure the right person
    receives the right benefit payment at the right time. The SSA Office
    of the Inspector General (OIG) exists to protect and improve the
    Agency, strengthening it so that it can properly serve the millions
    of Americans who turn to SSA for help. I am proud of this office’s
    unwavering dedication to inspiring confidence in the integrity and
    security of SSA’s programs, as we strive to guard them against fraud,
    waste, and abuse.

    I am pleased, then, to present this Semiannual Report to Congress,
    covering the period October 1, 2011 through March 31, 2012. This report includes OIG’s significant
    audit, investigative, and legal accomplishments during the first half of Fiscal Year 2012. During this
    reporting period, we:

    •	 Maintained a focus on persistent management challenges, such as improving the quality of the
       disability process, as well as on high-priority investigations, such as those targeting disability
       applicants who conceal their living arrangements and income and resources to obtain Social
       Security benefits fraudulently.

    •	 Completed several notable reviews that examined the pending hearings backlog and the
       performance of administrative law judges, as the timeliness and accuracy of SSA’s disability
       decisions at the hearing adjudicative level is at the forefront of congressional and Agency concerns.

    •	 Investigated Social Security applicants who misused a Social Security number (SSN) to obtain
       benefit payments, and we offered recommendations to SSA and the Congress to strengthen the
       integrity and protection of the SSN.

    •	 Collected civil monetary penalties from several organizations to settle alleged violations of
       Section 1140 of the Social Security Act, which prohibits the use of SSA words and symbols in
       advertisements and communications in a manner that conveys that such items are approved,
       endorsed, or authorized by SSA; or that a person has some connection with, or authorization
       from, SSA.

    In everything we do, this office aims to improve SSA and its operations so that the Agency can evolve
    with the changing times and maintain its excellent record of service. I assure you that we will continue
    to work with SSA and the Congress to help the Agency fulfill its obligation to millions of citizens
    across the country that depend on SSA for support.

    S
        Patrick P. O’Carroll, Jr.
         Inspector General

October 1, 2011 - March 31, 2012                                                                                1
                                                                                              Semiannual Report to Congress




                                Social Security Administration
                       Office of the Inspector General



                                                 Contents
                        A Message from the Inspector General ............ 1

                        Executive Summary ............................................... 4

                        Introduction to Our Organization.................... 6

                        Impact ...................................................................... 7

                        Value .......................................................................21

                        People .................................................................... 32

                        Reporting Requirements and Appendices .........35

                        Glossary of Acronyms ......................................... 63




October 1, 2011 - March 31, 2012                                                                                         3
Semiannual Report to Congress




EXECUTIVE SUMMARY                                          Value
This report presents the significant accomplishments       Our organization strives to provide valuable products
of SSA’s OIG from October 1, 2011 through March            and services in a timely manner to the Congress,
31, 2012. The report is organized according to three       SSA, and other key decision-makers, while sustaining
major goals—impact, value, and people—set forth            a positive return for each tax dollar invested in OIG
in the OIG Strategic Plan: Fiscal Years (FY) 2011-         activities. During this reporting period, our auditors
2015, second edition.                                      identified more than $1 billion in questioned costs
                                                           and more than $1.4 billion in Federal funds that could
                                                           be put to better use. Highlighted audits examine
Impact                                                     SSA’s effectiveness in applying the Government
                                                           Pension Offset (GPO) and the Windfall Elimation
We work to have a positive impact on SSA programs          Provision (WEP).
and operations by enhancing their integrity, efficiency,
and effectiveness. During this reporting period, we        In the first half of FY 2012, we are reporting over
received more than 63,000 allegations from SSA             $253 million in monetary accomplishments, with
employees, the Congress, the public, law enforcement       over $52 million in SSA recoveries, restitution, fines,
agencies, and other sources. Our agents closed more        settlements, and judgments; and almost $201 million
than 3,800 criminal investigations, resulting in over      in projected savings from investigations resulting in
280 arrests, 520 indictments and informations, 700         the suspension or termination of benefits. In addition,
criminal convictions (including pretrial diversions) and   we participated in multi-agency investigations that
100 civil judgments/civil monetary penalty (CMP)           resulted in over $27 million in savings, restitution,
assessments. Our OIG agents also continued to work         and recoveries for other agencies.
with law enforcement agencies to arrest subjects
                                                           Our Cooperative Disability Investigations (CDI)
identified through the Fugitive Enforcement Program.
                                                           Program continues to be one of our most successful
Highlighted investigations in this section relate to
                                                           initiatives, contributing to the integrity of SSA’s
SSN misuse, employee misconduct, and threats against
                                                           disability programs. The efforts of our CDI Units
SSA employees.
                                                           during this reporting period resulted in more than
Our auditors also had a significant impact during          $173 million in projected SSA program savings,
this reporting period, issuing 54 reports and making       and over $115 million in projected savings to other
recommendations on a wide variety of challenges            programs.
facing the Agency. Our audit work over the past six
                                                           During this reporting period, our attorneys initiated
months included reviews of SSA’s program for issuing
                                                           96 CMP actions (Section 1129 cases) that involved
replacement Social Security cards to prisoners, and
                                                           false statements, representations, or omissions made
SSA’s review of Administrative Law Judge (ALJ)
                                                           in connection with obtaining or retaining benefits
decisions.
                                                           or payments under Titles II and XVI (Supplemental
                                                           Security Income) of the Social Security Act (the Act).
                                                           Included in our investigative accomplishments above
                                                           is more than $4.5 million in penalties and assessments
                                                           that our attorneys imposed through our CMP program.




4                                                                              October 1, 2011 - March 31, 2012
                                                          Semiannual Report to Congress




People
The collective efforts of our employees continue to be
the driving force behind this organization’s success in
achieving its mission. We provide an encouraging and
rewarding work experience, with the goal of retaining
these exceptional individuals. OIG leadership fosters
an environment where employees can realize their
potential through training and developmental
programs. OIG components convene training sessions
to inform their employees about new procedures and
share best practices.
In addition, the OIG Organizational Health
Committee annually assesses employee satisfaction
levels and addresses employee concerns. SSA and
the Office of Personnel Management (OPM) use
a baseline of 65 percent of employees responding
positively (e.g., strongly agree or agree) to measure
the statistical strength of an organization. Using
that definition of statistical strength, 12 of the 13
questions on the OIG survey had scores above 65
percent, demonstrating that the health of the OIG
organization is strong. Question 12 of this survey
asks, “Considering everything, how satisfied are you
with your job?” 82 percent of our employees indicated
that they are either satisfied or very satisfied with
their job, which is significantly higher than the 65
percent OPM baseline.




October 1, 2011 - March 31, 2012                                                     5
Semiannual Report to Congress




INTRODUCTION TO OUR                                         Office of the Counsel to the
ORGANIZATION                                                Inspector General
                                                            The Office of the Counsel to the Inspector General
SSA OIG comprises the Immediate Office of the
                                                            (OCIG) provides independent legal advice and
Inspector General and five major components:
                                                            counsel to the Inspector General on a wide range
the Offices of Audit, Counsel, External Relations,
                                                            of issues, including statutes, regulations, legislation,
Investigations, and Technology and Resource
                                                            and policy directives. OCIG also administers the
Management.
                                                            CMP program, and advises the Inspector General
                                                            on investigative procedures and techniques, as well
                                                            as on the legal implications of audit and investigative
Immediate Office of the Inspector                           affairs.
General
The Immediate Office of the Inspector General (IO)
provides the Inspector General with staff assistance        Office of External Relations
on the full range of his responsibilities. IO staff         The Office of External Relations (OER) disseminates
provides liaison with all agencies sharing common           information about the OIG’s work to Congress,
interests with the OIG and ensures coordination with        the media, and the public. To accomplish this,
congressional committees, SSA, the Social Security          OER prepares speeches and presentations for OIG
Advisory Board, and the Council of Inspectors               executives, coordinates the OIG presence at both
General on Integrity and Efficiency (CIGIE).                government and public events, publishes a wide
IO also includes the Office of Quality Assurance            variety of informational materials, prepares the OIG’s
and Professional Responsibility (OQAPR), which              Semiannual Report to Congress, and acts as the
performs two critical functions. First, it conducts         national voice of the OIG in the news media. OER
detailed reviews of each of the OIG’s component             also maintains the OIG presence on the Internet,
offices to ensure compliance with Federal laws and          prepares responsive materials for stakeholders in
regulations, Agency policies, and relevant professional     Congress and throughout government, and supports
standards. Second, OQAPR conducts investigations            the other OIG components with respect to critical
into allegations of misconduct by OIG employees.            external communications, ensuring that the OIG
                                                            speaks with a single, unified voice.

Office of Audit
The Office of Audit (OA) conducts and supervises
                                                            Office of Investigations
financial and performance audits of SSA programs            The Office of Investigations (OI) conducts and
and operations, and makes recommendations to                coordinates investigative activity related to fraud,
ensure that program goals are achieved effectively          waste, abuse, and mismanagement in SSA programs
and efficiently. Financial audits determine whether         and operations. This includes wrongdoing by
SSA’s financial statements fairly present SSA’s             applicants, beneficiaries, contractors, and third parties,
financial position, results of operations, and cash flow.   as well as by SSA employees while performing their
Performance audits review the economy, efficiency,          official duties. This office serves as the OIG’s liaison
and effectiveness of SSA’s programs and operations.         to the Department of Justice (DOJ) on all matters
OA also conducts short-term management and                  relating to the investigation of SSA programs and
program evaluations, and other projects on issues of        personnel. OI also conducts joint investigations
concern to SSA, the Congress, and the general public.       with other Federal, state, and local law enforcement
                                                            agencies, and it shares responsibility with the
                                                            Department of Homeland Security’s (DHS) Federal


6                                                                                October 1, 2011 - March 31, 2012
                                                                                  Semiannual Report to Congress




Protective Service (FPS) for investigating threats         program evaluations, focus on those SSA programs
or occurrences of physical assault or endangerment         and activities most vulnerable to waste, fraud, and
directed against SSA employees, contractors, and           abuse.
facilities.

                                                           American Recovery and Reinvestment Act of 2009
Office of Technology and Resource                          On February 17, 2009, the President signed into law
Management                                                 the Recovery Act, P.L. 111-5. The Administration
                                                           is committed to investing Recovery Act funds
The Office of Technology and Resource Management           with an unprecedented level of transparency and
(OTRM) provides administrative support to the              accountability so Americans know where their tax
Inspector General and OIG components. OTRM
                                                           dollars are going and how they are being spent. SSA
formulates and executes the OIG budget, and is
                                                           was provided funds under the Recovery Act in the
responsible for strategic planning, performance
reporting, and facility and property management.           following areas:
OTRM manages a national human resources program,
and develops and maintains the OIG’s administrative        • $500 million designated for the replacement of
policies and procedures. OTRM also maintains
                                                           SSA’s National Computer Center (NCC);
hardware, software, and telecommunications
networks to support the OIG’s mission. Finally,            • $500 million designated for processing disability
OTRM manages the OIG’s Allegation Management               and retirement workloads, and information
and Fugitive Enforcement Division and Electronic           technology acquisitions and research in support of
Crimes Division.                                           these workloads; and,
                                                           • $90 million to reimburse costs for processing a one-
                                                           time economic recovery payment (ERP) of $250 to
IMPACT                                                     millions of qualified individuals receiving Social
                                                           Security benefits and/or Supplemental Security
The first goal of the OIG Strategic Plan is Impact. We     Income (SSI).
are committed to enhancing SSA’s effectiveness and
efficiency through our investigative, audit, and legal
activities. We strive to have maximum impact on SSA’s      Congress provided our office $2 million to conduct
programs and operations to ensure their continued          oversight of SSA programs, projects, and activities
integrity and reliability. During this reporting period,   funded by the Recovery Act. During this reporting
we completed numerous audits, investigations, and          period, we issued two reports related to contracts that
legal initiatives that had a significant impact on the     were issued using Recovery Act funds.
detection and prevention of fraud, waste, and abuse.
The summaries presented below are indicative of our
                                                           1) Recovery Act Exchange Contract with
work over the past six months.
                                                           Lovelace Clinic Foundation - Contract SS00-
                                                           10-60030
Audit Impact Initiatives                                   A section of the Recovery Act, the Health Information
OA contributes to this strategic goal by conducting and    Technology for Economic and Clinical Health Act,
supervising comprehensive financial and performance        provided that up to $40 million allocated to SSA may
audits, and by making recommendations to maximize          be used for Heath Information Technology (HIT)
the effective operations of Social Security programs.      research and activities to facilitate the adoption of
These audits, along with short-term management and         electronic records in disability claims. We initiated
                                                           this review to determine whether (1) SSA properly

October 1, 2011 - March 31, 2012                                                                                7
Semiannual Report to Congress




accounted for Recovery Act funds;(2) SSA achieved      purchase of IBM System i® hardware, software, and
its objective of requesting and receiving medical      development tools; (2) the contractors complied
information through health information technology;     with the contract terms and applicable regulations;
(3) the contractor complied with the contract terms    and (3) SSA personnel properly monitored the
and applicable regulations; and (4) SSA personnel      contract. In addition, we also determined that 3.54
properly monitored the contract. HIT allowed SSA       jobs were created in relation to this contract.
to automate the authorized request and receipt of
data and analyze received data electronically. On      During our audit, we identified three minor issues
February 1, 2010, SSA awarded a HIT contract to        that did not negate IBM’s performance or SSA’s
Lovelace Clinic Foundation (LCF).                      oversight of the contract. We recommended SSA:

Our audit found that SSA properly accounted for        •	 verify that the Agency received all the IBM
Recovery Act funds related to this contract. In           invoices and deobligate the $28,958 in funds for
addition, we determined that the LCF contract is          the IBM contract that were not expended.
progressing. SSA stated LCF’s progress is slower
than planned, but SSA expects that LCF will            •	 request that IBM repay the Agency $9,184 for
successfully complete this contract. We determined        the hardware and software overpayment on Call
that LCF performed all tasks required by the              Order 51.
contract and complied with the contract terms
and applicable regulations for the first contract      •	 encourage DDSs to continue to have personnel
milestone. Additionally, we verified there were           check the identification badges of contractors
2.31 jobs created or retained for the third quarter       who enter DDS sites.
of Calendar Year 2010; and LCF reported the jobs
in a manner consistent with Office of Management       SSA agreed with our recommendations.
and Budget guidance. Furthermore, we determined
that SSA personnel were properly monitoring the
contract. We made no recommendations in this           Congressional Response Report: Oversight of
report.                                                Administrative Law Judge Workload Trends
                                                       Our objective was to identify Administrative Law
2) SSA’s Recovery Act-funded Contract with             Judges (ALJs) who were significant outliers in
International Business Machines, Inc., Blanket         terms of either their productivity or their decisional
Purchase Agreement SS00-08-40004, Call                 allowance rates; examine factors that may account
Order 51                                               for variances; and determine the effectiveness of
The purpose of this review was to determine whether    management controls over ALJ adherence to SSA
(1) SSA properly accounted for Recovery Act funds      policies and procedures.
for the purchase of International Business Machines,
Inc. (IBM), System i® hardware, software, and          In FY 2010, 1,398 ALJs issued between 1 and 3,620
development tools; (2) the contractor complied with    dispositions. The majority of these ALJs met or
the contract terms and applicable regulations; and     exceeded the Agency’s 500- to 700-case disposition
(3) SSA personnel properly monitored the contract.     benchmark. Additionally, while the average
                                                       decisional allowance rate for ALJs in FY 2010 was
Based on our review at 10 DisabilityDDS locations      67 percent, it ranged from a low of 8.6 percent to a
and SSA Headquarters, we found that (1) SSA            high of 99.7 percent, nationwide.
properly accounted for Recovery Act funds for the
                                                       We reviewed the workload trends of the 24 ALJs

8                                                                          October 1, 2011 - March 31, 2012
                                                                                 Semiannual Report to Congress




with the highest and lowest allowance rates to better      comply, SSA can seek disciplinary actions. SSA also
understand potential causes for these variances. We        uses post-effectuation reviews to identify training
also visited the hearing offices associated with these     needs.
ALJs to discuss workload processing.
                                                           SSA has the authority to review ALJs’ decisions
In our discussions with Office of Disability               but faces legal limitations in conducting its reviews.
Adjudication and Review (ODAR) managers and                Federal regulations require that neither SSA’s
visits to hearing offices, we learned that the variances   random sampling procedures nor its selective
in allowances can be attributed to many factors,           sampling procedures will identify ALJ decisions
most notably ALJ decisional independence and the           for the Appeals Council’s (AC) pre-effectuation
demographics of claimants served by the hearing            review based on the identity of the decisionmaker
office, such as their age, education, and available        or the identity of the office issuing the decision.
work. We also found that ODAR established a new            According to SSA, this requirement in its rules
control to ensure proper case rotation, though we          ensured that its case selection procedures did not
identified a number of case rotation exceptions at the     stop ALJs from deciding cases impartially, free from
hearing offices related to dismissals, on-the-record       Agency influence. Under the regulations, the AC
decisions, and frequency of claimant representation.       has 60 days in which to decide whether to take own
                                                           motion review of a claimant’s case, and the decision
While ODAR managers monitored ALJ                          is subject to change.
performance, this monitoring was limited to
their progress in meeting established productivity         SSA also has the authority to conduct post-
benchmarks. We found only one instance in the last         effectuation reviews of specific ALJ decisions based
5 years where the Agency had initiated disciplinary        on anomalies. Post-effectuation reviews occur after
action related to an ALJ’s workload performance,           the 60-day period within which the AC can take
though SSA had taken other disciplinary actions            own motion review and ordinarily do not result in
against ALJs for insubordination of direct orders          a decision change. The post-effectuation reviews
or directives to process hearing cases timely. We          determine whether ALJs followed SSA’s policies
believe greater Agency attention is needed to ensure       and procedures. If SSA determines an ALJ failed
that ALJ outliers, high or low, are monitored, and         to comply with Agency policies and procedures, it
that the underlying work processes are periodically        can issue directives to the ALJ to comply. If the ALJ
reviewed.                                                  fails to comply, SSA can seek disciplinary actions.
                                                           SSA also uses post-effectuation reviews to identify
                                                           training needs.
Congressional Response Report: SSA’s Review
of Administrative Law Judges’ Decisions                    Most recently, SSA conducted three types of reviews
                                                           of ALJs’ decisions:
At the request of the Committee on Ways and Means,
Subcommittee on Social Security we evaluated (1)           •	 In FY 2011, ODAR completed its first annual
the constraints, including statutory limitations, SSA         pre-effectuation review, which included 3,692
faces in reviewing ALJ decisions; and (2) SSA’s               randomly selected ALJ allowance decisions.
quality review systems for ALJs’ decisions.

If SSA determines an ALJ failed to comply with             •	 In FY 2011, ODAR conducted seven post-
Agency policies and procedures, it can issue                  effectuation studies based on anomalies that
directives to the ALJ to comply. If the ALJ fails to          came to its attention.



October 1, 2011 - March 31, 2012                                                                               9
Semiannual Report to Congress




•	 In FY 2010, SSA’s Office of Quality Performance      •	 develop and implement a cost-effective method
   began performing post-effectuation reviews of           and require specific management approval for
   randomly selected ALJ decisions.                        requests that exceed that limit for controlling
                                                           and accounting for the issuance of SSN printouts.
Controls for Issuing SSN Printouts                      Because SSA agreed to implement improvements in
Our objective was to determine whether (1) SSA          processing SSN Printouts, we decided to withdraw
had adequate internal controls over the issuance of     one recommendation.
SSN Printouts; and (2) field offices located near the
United States-Mexico border issued an unusually
high number of SSN Printouts.                           Follow-up:    SSA’s Program for Issuing
                                                        Replacement Social Security Cards to Prisoners
Individuals have access to many SSA records,
including SSN Printouts—which contain the same          Our objective was to determine the status of
information as an SSN card, but with none of the        corrective actions SSA had taken to address
same security features. The number of SSN Printouts     recommendations in our July 2006 report, The
SSA issues continues to increase. In FY 2009, SSA       Social Security Administration’s Program for Issuing
issued over 7 million SSN Printouts.                    Replacement Social Security Cards to Prisoners (A-
                                                        08-06-16025); and assess the effectiveness of the
Despite some corrective actions SSA took in response
                                                        Agency’s controls for issuing replacement Social
to our previous report, we continue to believe the
                                                        Security cards to prisoners under prison agreements.
Agency should strengthen its controls for issuing
SSN Printouts. Since our December 2007 report, we
                                                        Although SSA had taken steps to enhance controls
found an increase in the volume of numberholders
                                                        for issuing replacement Social Security cards to
obtaining more than 10 SSN Printouts in a day and
                                                        prisoners, we determined that vulnerabilities still
a year and the occurrences of fraud involving SSN
                                                        existed, and the Agency needs to address those
Printouts. Additionally, SSA managers still had
                                                        vulnerabilities to improve SSN integrity and
little information to monitor the number of SSN
                                                        security. For example, our review disclosed that
Printouts issued and related anomalies. Finally, SSA
                                                        some SSA field offices continued to process prisoner
field offices located near the United States-Mexico
                                                        replacement card applications without required
border did not issue an unusually high number of
                                                        Memorandums of Understanding (MoU). We
SSN Printouts.
                                                        also determined that some field offices improperly
We acknowledge the importance of SSA’s compliance       accepted prisoner identification (ID) cards as
with Privacy Act and Office of Management and           evidence of identity. Further, we determined that
Budget guidelines to provide individuals appropriate    prisons routinely submitted incorrect or incomplete
and timely access to their SSN information.             replacement card applications to field offices. We
Nevertheless, we are concerned SSA continues to         believe SSA can enhance SSN integrity and security
issue a high number of SSN Printouts with less          by working with prison personnel to ensure they
stringent identity requirements and fewer controls      fully understand the prisoner enumeration process,
than those for SSN cards.
We made six recommendations to SSA, including:
•	 establish a limit on the number of SSN Printouts
   an individual may obtain in a day, year, and
   lifetime



10                                                                         October 1, 2011 - March 31, 2012
                                                                                 Semiannual Report to Congress




and by instructing field offices to review prisons
when they do not comply with the terms of the
MoU.

We recommended that SSA: (1) ensure all field
offices that process replacement Social Security
card applications on behalf of correctional facilities/
prisoners do so under an approved MoU; (2)
reemphasize to field office personnel that prisoner
ID cards are not acceptable evidence of identity, and
ensure they end this practice; (3) consider deleting
“Prisoner ID” (third-level identity evidence) in                    Investigative Results
Social Security Number Application Process and
replacing it with less confusing language; (4) work                                        10/1/11-3/31/12
with prison personnel to ensure they fully understand
                                                          Allegations Received                  63,368
the prisoner enumeration process; and (5) instruct
field offices to review correctional facilities when      Cases Opened                           3,969
they do not comply with the terms of the MoU, in
                                                          Cases Closed                           3,804
accordance with SSA policies and procedures. SSA
agreed with our recommendations.                          Arrests                                 283
                                                          Indictments/Informations                521
Investigative Impact Initiatives                          Criminal Convictions                    703
OI examines and investigates allegations of fraud,        Civil/CMPs                              108
waste, abuse, and mismanagement in SSA programs
and operations. These allegations may involve issues
such as benefit fraud, SSN misuse, violations by SSA
employees, or fraud related to grants and contracts.
Our investigations often result in criminal or civil
prosecutions or the imposition of CMPs against
offenders. These investigative efforts improve SSA
program integrity by recovering funds and deterring
those contemplating fraud against SSA in the future.
Our work in the areas of program fraud, enumeration
fraud, SSN misuse, and employee misconduct ensures
the reliability of SSA programs and their future
operations.




October 1, 2011 - March 31, 2012                                                                           11
Semiannual Report to Congress




                                Cases Opened by Program Category
                                 October 1, 2011 - March 31, 2012




                                 Cases Closed by Program Category
                                 October 1, 2011 - March 31, 2012




12                                                                  October 1, 2011 - March 31, 2012
                                                                                             Semiannual Report to Congress




                                                                      Disability Fraud: Bookkeeper Used His Wife’s
        Allegations Received by Source                                SSN for Work
                                                                      Based on a referral from an anonymous source, our Las
                                                  10/1/11-3/31/12     Vegas, Nevada office investigated a Title II disability
SSA Employees                                            25,081       beneficiary for concealing his work activity from SSA
                                                                      by using his wife’s SSN. From June 2002 through
Private Citizens                                         17,996       January 2012, the man concealed his operation of a
                                                                      bookkeeping business, while fraudulently receiving
Anonymous                                                13,569
                                                                      $525,327 in SSA disability benefits.
Law Enforcement1                                          1,735
                                                                      In January 2012, after the man pled guilty to theft
Beneficiaries                                             1,221       of government funds, a U.S. District Court judge,
Public Agencies                                           3,751       sentenced him to 24 months in prison, 3 years’
                                                                      supervised release, and ordered him to pay restitution
Other                                                       15        of $525,327 to SSA.
TOTAL                                                    63,368


                                                                      Disability Fraud: Woman Assumes Sister’s
     Allegations Received by Category                             2   Identity to Receive Disability Benefits

                                                  10/1/11-3/31/12     Based on information provided by the Philadelphia,
                                                                      Pennsylvania SSA Mid-Atlantic Program Service
Disability Insurance                                     24,908       Center, our Baltimore, Maryland office investigated
                                                                      a woman for assuming her sister’s identity to obtain
SSI Disability                                           14,560       Title II disability benefits. From May 1995 through
SSN Misuse                                                6,451       June 2011, the woman fraudulently received $305,844
                                                                      in SSA benefits, and caused her sister to apply for a
Old-Age and Survivors Insurance                          11,673       second SSN as an identity theft victim.
Other                                                     3,412
                                                                      In December 2011, after the woman pled guilty to
Employee-Related                                          1,301       theft of government property and aggravated identity
                                                                      theft, a U.S. District Court judge, sentenced her to
SSI Aged                                                  1,063
                                                                      30 months in prison, 3 years’ supervised probation,
TOTAL                                                    63,368       50 hours of community service and ordered her to
                                                                      pay restitution of $305,844 to SSA.
   1 Effective FY 2011, OIG has excluded allegations related to the
   Fugitive Enforcement Program from our allegation count.
   2 See footnote 1.




   October 1, 2011 - March 31, 2012                                                                                       13
Semiannual Report to Congress




Disability Fraud:     Man Provides              False    Representative Payee Fraud: Woman Recruits
Statements to Conceal Employment                         Imposter and Collects Payments
Acting on information provided by the Nicetown,          Acting on information provided by the East
Philadelphia, Pennsylvania SSA office, our               Birmingham, Alabama SSA office, our Birmingham
Philadelphia office investigated a Title II disability   office investigated a woman acting as a representative
beneficiary for providing false statements to conceal    payee for her ex-daughter-in-law’s Title II disability
his employment. From January 1995 through April          benefits. The woman recruited an imposter to apply
2010, the man fraudulently received $209,424 in          for SSA benefits as the ex-daughter-in-law. From
SSA benefits.                                            September 2002 through March 2011, the woman
                                                         fraudulently collected $67,941 in benefits on behalf
In December 2011, after the man pled guilty to           of her ex-daughter-in-law.
conversion of government funds, false statements,        In January 2012, after the woman pled guilty to mail
and Social Security fraud, a U.S. District Court         fraud and aggravated identity theft, a U.S. District
judge, sentenced him to 15 months in prison, 3           Court judge sentenced her to 35 months in prison
years’ supervised release, and ordered him to pay        and 3 years’ supervised release, and ordered her to
restitution of $209,424 to SSA.                          pay restitution of $67,941 to SSA.


Disability Fraud:      Army Reservist Conceals           Representative Payee Fraud: Father Misused
Employment                                               Daughters Title II Survivor’s Benefits
In response to information provided by the Morrow,       Acting on information provided by the Salinas,
Georgia SSA office, our Atlanta office investigated      California SSA Teleservice Center, our Chicago,
a man for concealing his ownership of a trucking         Illinois office investigated a man acting as the
company and employment as a U.S. Army National           representative payee for his daughters’ Title II
Guard reservist. From 2002 through 2009, the man         survivors benefits. The man concealed that his
fraudulently received $199,280 in Title II disability    daughters lived with family relatives and failed to
benefits.                                                provide financial support. From November 1997
                                                         through December 2008, the man improperly
In October 2011, after the man pled guilty to wire       converted $110,860 of his daughters’ benefits to his
fraud, a U.S. District Court judge, sentenced him to     own use.
18 months in prison, 3 years’ probation and ordered
                                                         In December 2011, after a jury found him guilty of
him to pay restitution of $199,280 to SSA.
                                                         theft of government property and wire fraud, a U.S.
                                                         District Court judge, Northern District of Illinois,
                                                         sentenced him to 4 years’ probation, one year home
                                                         confinement with electronic monitoring, and 180
                                                         days of community service; and ordered him to pay
                                                         restitution of $110,860 to SSA.




14                                                                           October 1, 2011 - March 31, 2012
                                                                               Semiannual Report to Congress




Representative Payee Fraud: SSA Organizational           with electronic monitoring, and ordered her to pay
Representative Payee Embezzled Clients’ Funds            restitution of $103,219 to SSA.

Based on a referral from the Cuyahoga County,            SSA Fraud: Oregon Woman Conceals Father’s
Ohio Board of Developmental Disabilities, our            Death for 26 Years
Cleveland office investigated a man, along with his
Chief Operating Officer (COO), who operated an           Acting on information provided by the Anchorage,
SSA organizational representative payee business.        Alaska SSA office, our Salem, Oregon office
From 2007 through October 2010, the man and              investigated a Cottage Grove, Oregon woman. In
his business associate embezzled $118,600 in             1984, the woman’s father disappeared, and she began
Social Security funds and $34,204 in Board of            receiving his SSA Title II, civil service (OPM),
Developmental Disabilities funds. In furtherance of      and military pension benefits. Our investigation
his scheme, the man completed at least 30 electronic     determined that the woman’s father died in 1984.
bank transfers per month, and forged bank account        For over 26 years, the woman continued to receive
statements and client ledgers.                           monthly benefits intended for her father.
In January 2012, after the man pled guilty to engaging   In October 2011, after the woman pled guilty to theft
in a pattern of corrupt activity and theft, a Cuyahoga   of government property, a U.S. District Court judge
County judge sentenced him to 3 years in prison, 5       sentenced her to 18 months in prison and 3 years
years’ supervised probation, and ordered him to pay      of probation, and ordered her to pay restitution of
a $10,000 fine and restitution of $48,500 to SSA.        $95,628 to SSA, $302,632 to OPM, and $405,074
                                                         to the Defense Finance and Accounting Service.
In February 2012, after the COO pled guilty to
telecommunications fraud, a Cuyahoga County Court
of Common Pleas judge sentenced her to 30 days in        SSA Fraud: Nutrition Store Owner Conceals
prison, 4 months’ home confinement with electronic       Work
monitoring, 150 hours of community service, and 3
years’ supervised probation.                             Based on information provided by the U.S.
                                                         Department of Agriculture, Office of Inspector
                                                         General, our Little Rock,          Arkansas office
Representative Payee Fraud: Woman Conceals               investigated a Cecil, Arkansas woman. From
Son’s Marriage to Continue His Benefits                  November 2001 through February 2009, the woman
                                                         concealed her work and earnings as the co-owner of
In response to information provided by the Tulsa,
                                                         a nutrition store, while receiving monthly Title II
Oklahoma SSA office, our Little Rock, Arkansas
                                                         disability benefits.
office investigated a woman acting as a representative
payee for her son’s Title II Disabled Adult Child        In October 2011, after the woman pled guilty to
benefits. The woman concealed her son’s 2003             concealing a material fact from the SSA and the
marriage and his living arrangement with his wife.       United States Department of Agriculture, a U.S.
From December 2003 through March 2011, the               District Court judge sentenced the woman to 24
woman fraudulently received $103,219 in SSA              months in prison and ordered her to pay restitution
benefits intended for her son.                           of $91,065 to SSA and $101,410 to the Arkansas
                                                         Department of Health’s Woman, Infant, and
In December 2011, after the woman pled guilty to
                                                         Children Program.
Social Security fraud, a U.S. District Court judge,
Northern District of Oklahoma, sentenced her to 5
years’ probation and 8 months’ home detention


October 1, 2011 - March 31, 2012                                                                           15
Semiannual Report to Congress




SSA Fraud:       Nevada Woman Uses Two                   Employee Fraud: Former SSA Employee
Identities to Receive Benefits                           Convicted of Selling SSNs on Public Websites
Acting on information provided by the Nevada             Agents from our Cleveland, Ohio office and from
Department of Motor Vehicles, our Las Vegas              the FBI conducted a joint investigation of an SSA
office investigated a woman who assumed her              District Office Manager for advertising the sale of
deceased sister’s identity during the 1960s. In 1992,    valid SSNs on public websites, including Craigslist.
the woman claimed SSA widows’ benefits under             The investigation determined that the employee who
her own identity, and from 1994 through 2011, she        was authorizing and directing replacement SSNs
received SSI aged benefits using her sister’s name       to individuals who would not have otherwise been
and identity.                                            eligible to receive an SSN card. The employee falsely
                                                         promised the applicants that the new SSN would
In November 2011, after the woman pled guilty            secure them a new credit history.
to felony theft, a State of Nevada District Court
judge sentenced her to 12-32 months in prison            In November 2011, after the former employee pled
(suspended) and 5 years of probation, and ordered        guilty to conspiracy to deceive the Commissioner
her to pay restitution of $109,629 to SSA.               SSA, a U.S. District Court judge, sentenced the
                                                         former employee to 4 years’ probation, 3 months’
                                                         home detention, and 100 hours of community
Employee Fraud: Former SSA Employee
                                                         service. The judge also ordered the former employee
Uses Fraudulent Documents to Secure Vehicle
                                                         to pay a $500 fine and a $100 special assessment fee.
Financing for Friend
Based on information provided by the SSA Center          SSA terminated the employee in April 2011.
for Security and Integrity, Atlanta Region, our
Birmingham, Alabama office investigated an SSA
teleservice representative who attempted to secure       Employee Fraud: Former SSA Employee
vehicle financing for a friend by using fraudulent       Convicted of Negotiating Fraudulent Checks
documents. The investigation determined that
                                                         Based on information provided by the SSA Center
the employee faxed falsified documents to the car
                                                         for Security and Integrity, Philadelphia Region,
dealership from her workplace. In addition, she
                                                         our Philadelphia office investigated an SSA benefit
accessed the SSA database regarding the fraudulent
                                                         authorizer for utilizing her official SSA HSPD-12
SSN listed on the loan application.
                                                         credentials as identification, while negotiating a
In October 2011, after she pled guilty to SSN misuse     fraudulent check, which she alleged to be an SSA
and aggravated identity theft, a U.S. District Court     payroll check. The investigation revealed that the
judge sentenced the employee to 29 months in prison,     employee successfully negotiated eight fraudulent
followed by 3 years’ probation. As a special condition   checks totaling $10,252.
of probation, the judge ordered her to serve 5 months
of home confinement.                                     In February 2012, following her plea of guilty to
                                                         false financial instruments, a U.S. District Court
SSA terminated the employee in February 2010.            judge sentenced the former employee to one day of
                                                         prison, 5 years’supervised release, and ordered her
                                                         to pay restitution of $10,593 to two check-cashing
                                                         businesses. The employee resigned from SSA in
                                                         April 2011.


16                                                                           October 1, 2011 - March 31, 2012
                                                                               Semiannual Report to Congress




Employee Fraud: Former SSA Employee                      employees or buildings. We opened 49 cases and
Convicted of Operating an E-mail Pyramid                 closed 17 cases nationwide related to employee safety.
Scheme
                                                         The following case summaries highlight significant
Based on information provided by the Knoxville,          investigations we conducted during this reporting
Tennessee SSA office, agents from our Nashville          period in which SSA employees were threatened by
office investigated an SSA claims representative         members of the public.
for operating an e-mail pyramid scheme while
using his SSA e-mail address. Our agents set up a
covert e-mail account and contacted the employee         Kentucky Man Attempts to Kill SSA Employe.
at his SSA e-mail address, requesting assistance in      Our Lexington, Kentucky office initiated an
a business transaction. The employee agreed to the       investigation based on information provided by the
transaction, accessed SSA’s database to obtain three     Nicholasville, Kentucky SSA Area Director’s Office.
SSNs, and subsequently provided those numbers to         In August 2011, a former SSA employee broke
agents in exchange for $300.                             into the home of an SSA employee, and shot the
                                                         employee and another occupant, before fleeing the
In January 2012, after he pled guilty to computer        scene. A subsequent manhunt, involving SSA OIG
fraud, a U.S. District Court judge, Eastern District     personnel and other law enforcement agencies, led
of Tennessee, sentenced him to 6 months’ home            to the individual’s arrest.
detention and 3 years’ probation, and ordered him to
pay restitution of $300 to SSA.                          In October 2011, after the individual pled guilty to
                                                         first-degree burglary and two counts of attempted
The SSA employee resigned from SSA in March              murder, a State of Kentucky Circuit Court judge
2011.                                                    sentenced him to 12 years in prison on each count.


Threats and Assaults Against SSA                         Seattle Area Man Threatens to Shoot SSA
Employees                                                Employees
Employee safety is of paramount concern to SSA and       Our Seattle, Washington office initiated an
the OIG. We share responsibility for investigating       investigation based on information provided by the
reports of threats of force or use of force against      Auburn, Washington SSA Teleservice Center. In
Agency employees with the DHS FPS, which has             August 2011, an SSA recipient telephoned the SSA
jurisdiction over physical property owned or leased      Teleservice Center and stated that he had better
by the Federal government, and with local law            receive his money, or he would go into the SSA
enforcement if the activity occurs off Federally owned   office and shoot everyone.
or leased property.
During the reporting period, we received 746             In December 2011, after the individual pled guilty to
allegations nationwide related to employee safety        threatening a Federal official, a U.S. District Court
issues, of which 222 involved assault or harassment,     judge, Western District of Washington, sentenced
and 524 were associated with threats against SSA         him to 5 months and 5 days in prison, and 3 years’
                                                         supervised release.




October 1, 2011 - March 31, 2012                                                                            17
Semiannual Report to Congress




Employee Sends White Powder Mailings to                     and a smoking apparatus were found in the SSA
SSA Office                                                  beneficiary’s possession. The felony warrant was
                                                            issued by the State of California.
Based on a threat report received from the U.S.
Postal Inspection Service, our Birmingham,               •	 OIG agents and members of the Hillsborough
Alabama office investigated a former SSA employee           County, New Hampshire Sheriff ’s Office, fugitive
for sending two suspicious letters containing a             unit, arrested an SSA beneficiary on a warrant
white powdery substance to two SSA supervisors.             dated December 2010 for Burglary, Simple
In September 2009, the U. S. Post Office in Boaz,           Assault, and Receiving Stolen Property. The
Alabama received two white powder mailings from             SSA beneficiary was also wanted on a warrant
an anonymous source. Both letters were addressed            dated September 2011 by the Norwood, New
to SSA officials in the same SSA office. Security           Hampshire Police Department for Larceny and
footage from the post office eventually revealed that       Criminal Trespass.
an SSA employee from the same office mailed the
letters.                                                 •	 OIG agents and members of the U.S. Marshals
                                                            Service, Capital Area Regional Fugitive Task
In January 2012, after the former SSA employee              Force in Richmond, Virginia arrested an SSA
pled guilty to providing false information, a U.S.          beneficiary on a warrant dated September 2011
District Court judge sentenced her to 5 years’              for failure to register as a violent sex offender.
probation, and ordered her to pay a $2,000 fine.            The beneficiary also had two other outstanding
                                                            felony warrants dated October 2011, issued by the
                                                            Virginia State Police, for violation of probation.
Fugitive Enforcement Program                             •	 OIG agents and the Boston Regional U.S.
The OIG’s Fugitive Enforcement Program identifies           Marshals Service Sex Offender Apprehension
individuals reported to have outstanding felony             Program, along with Boston, Massachusetts
arrest warrants and outstanding warrants for parole         Police Department detectives, arrested an SSA
and probation violations. SSA shares its location           beneficiary on a warrant dated January 2011,
information for wanted felons with local law                for Failure to Comply with the Sex Offender
enforcement agencies to assist in their apprehension        Registration Act (the SSA beneficiary’s 3rd
efforts. In turn, these agencies advise SSA on the          offense). The warrant was issued by the Maine
disposition of the warrant so SSA can take appropriate      Superior Court after an Indictment. The SSA
administrative action on the benefits.                      beneficiary was also wanted in the State of
                                                            Rhode Island on a warrant dated September
Our data-sharing efforts with law enforcement               2011, for Failing to Register as a Sex Offender.
agencies contributed to the arrest of 52 subjects
during the reporting period, and more than 95,400
arrests since the program’s inception in 1996. The
following are some examples of fugitive felon
activities during the past six months:
•	 OIG agents and members of the FBI Inland
   Regional Apprehension Team in Riverside,
   California arrested an SSA beneficiary wanted
   on a warrant dated January 2012 for 1st-Degree
   Robbery. During the arrest, methamphetamine,


18                                                                           October 1, 2011 - March 31, 2012
                                                                               Semiannual Report to Congress




Legal Impact Initiatives                                 Gray agreed to pay a CMP to settle the claim.
                                                         Bennett & Gray also agreed to discontinue the
Section 1140 Enforcement                                 use of the domain names www.sscards.us and
                                                         www.sscardapplication.com.
Section 1140 of the Act is a consumer protection
tool against misleading advertising. Section 1140
prohibits, in part, the use of Social SSA words and      Section 1140 Outreach
symbols in advertisements, solicitations, or other
communications in a manner that conveys the false        OCIG has initiated an outreach program to combat
impression that such item is approved, endorsed, or      an alarming increase in Internet-based violations
authorized by SSA, or that such person has some          of Section 1140 of the Act. Fraudsters develop
connection with, or authorization from, SSA.             misleading websites, utilize misleading domain
                                                         names, and place deceptive advertisements with search
Communications running afoul of Section 1140 take        engines to create a false impression of a connection
many forms, such as deceptive paper-based mailers,       to, an affiliation with, or endorsement by SSA, as
misleading attorney advertising, and misleading          part of a scheme for financial gain. Such schemes
Internet solicitations, and the Internet-based sale      typically include charging a fee for an otherwise-
of Social Security forms. OCIG, using authority          free SSA Application for a Social Security card, or
delegated by the Commissioner and the Inspector          for procuring personally identifiable information. To
General, aggressively enforces Section 1140. The         combat this fraud, we have met with major search
statute provides for up to $5,000 in Civil Monetary      engine companies, domain registrar companies, and
Penalties “(CMP) for each separate violation of the      financial institutions that these fraudsters often use
Act. The Act also provides that a CMP of up to           to conduct their schemes. We have educated these
$25,000 may be imposed for each time a violating         companies about Section 1140 and, in the process,
broadcast or telecast is viewed.                         gained valuable insight and knowledge of some of the
                                                         key technical aspects of how fraudsters operate. These
                                                         companies are now working with OCIG to establish
Utah Company Agrees to Pay Civil Monetary
                                                         mechanisms to quickly and efficiently identify and
Penalty to Settle Alleged Violation of the Social
                                                         halt these schemes, and prevent them in the future.
Security Act
                                                         Since October 2011, our 1140 outreach efforts have
Bennett & Gray, LLC of Lindon, Utah, agreed to
                                                         shut down 15 Internet-based fraud schemes. We
pay a $50,000 CMP to SSA to settle the SSA OIG
                                                         are committed to enforcing Section 1140 and see
claim that the company violated Section 1140 of the
                                                         tremendous potential in our outreach program.
Act.
Bennett & Gray operated the websites
www.sscards.us and www.sscardapplication.com. The
websites offered for a fee, assistance in applying for
a new or replacement Social Security card. The SSA
OIG asserted that the websites’ design, along with
related domain names, created the false impression
of a connection with SSA.
Bennett & Gray voluntarily, and on its own initiative,
redesigned its website operation to bring it into
compliance with Section 1140. While not admitting
that it violated Section 1140 of the Act, Bennett &

October 1, 2011 - March 31, 2012                                                                            19
Semiannual Report to Congress




VALUE                                                      by Social Security.

The second goal of the OIG Strategic Plan is Value.        We identified OASDI beneficiaries who were
All OIG initiatives strive to provide value to SSA,        overpaid because SSA had not reduced their
the Congress, other key decision-makers, and               benefits for non-covered work from state or local
the public by delivering timely and reliable audit,        government pensions. Of the 250 beneficiaries
investigative, and legal products and services. To         sampled, 79 were receiving pension payments based
achieve their intended value, these products and           on non-covered employment. Of our remaining 171
services must effectively meet the needs of those we       sample cases, 147 beneficiaries were not receiving
serve while maximizing our available resources. To         pension payments based on their state or local
do this, we integrate best-practice strategies and the     government employment. The employers for the
newest technologies to increase our productivity and       remaining 24 beneficiaries had not yet responded to
maximize our return on investment to the public.           our request for information.

                                                           Based on the results of our review, we estimate SSA
Value Attained Through Audits                              overpaid about $623.8 million in OASDI benefits to
                                                           approximately 24,900 beneficiaries because Agency
Many of our audits focus on identifying SSA                staff did not apply WEP and GPO provisions to
programmatic and operational areas where funds             the OASDI benefits. If SSA does not take action
could be put to better use. In addition, we often          to identify and correct these payment errors, we
question approaches and their accompanying costs,          estimate it will pay about $869.9 million in future
and we recommend alternatives to yield program and         overpayments over the beneficiaries’ lifetimes.
operational savings.
During this reporting period, our auditors issued 54       We recommended SSA (1) complete the
reports, identifying over $1 billion in questioned costs   determinations of whether the WEP or GPO
and over $1.4 billion in Federal funds that could be       provisions apply for the remaining beneficiaries
put to better use. Some of our most notable audits         identified during our review; (2) pursue legislation
are summarized below.                                      and alternative approaches for electronically
                                                           obtaining state and local government pension
                                                           data to enable application of the WEP and GPO
Old Age Survivors and Disability Benefits                  provisions; and (3) evaluate characteristics of the
Affected by State or Local Government Pensions             beneficiaries we identified as overpaid to determine
                                                           whether it is cost-effective for the Agency to
Our objective was to identify OASDI beneficiaries          identify similar overpayments to beneficiaries with
whose payments may have been affected by state or          unreported pensions subject to WEP or GPO. SSA
local government pensions. We limited our review to        agreed with our recommendations.
those beneficiaries who may have been receiving state
or local government pensions and for whom SSA had          Spousal Beneficiaries Who Reported They
not determined whether the Windfall Elimination            Were Entitled to a Government Pension
Provision (WEP) or Government Pension Offiset
(GPO) applied.                                             Our objective was to evaluate the effectiveness
                                                           of the SSA controls and procedures over spousal
The Act includes two provisions—WEP and GPO—
                                                           beneficiaries who reported they would be entitled to
that reduce Social Security monthly benefits paid to
                                                           a government pension in the future.
individuals who receive a pension based on Federal,
state, or local government employment not covered          Generally, Social Security benefits are reduced for


20                                                                               October 1, 2011 - March 31, 2012
                                                                               Semiannual Report to Congress




spouses, divorced spouses, and surviving spouses who    Old-Age Survivors and Disability Benefits
also receive a pension based on their own work for      Withheld Pending Supplemental Security
a Federal, state, or local government that was not      Income Windfall Offset
covered by Social Security. The reduction, known as
the GPO, is equal to two-thirds of the government       Our objective was to determine whether SSA had
pension. When individuals apply for spousal benefits,   adequate controls to ensure OASDI benefits that
SSA asks whether they receive or expect to receive      had been withheld pending an SSI windfall offset
a pension based on earnings not covered by Social       determination were paid accurately and timely.
Security.
                                                        The SSI windfall offset is a provision that prevents
SSA needed to improve its controls and procedures       an individual from receiving monthly OASDI and
to ensure GPO was timely and accurately applied.        SSI payments in excess of the total amount that
Specifically, we found that in some cases, SSA did      would have been paid if the OASDI benefits had
not; (1) follow up with spousal beneficiaries who       been disbursed when they were due rather than
stated they would receive a pension in the future;(2)   retroactively. In potential windfall offset cases, when
timely or accurately impose GPO; or (3) update the      an OASDI claim is processed, past due benefits
Master Beneficiary Record (MBR) with revised            are temporarily withheld pending an SSI windfall
pension information provided by beneficiaries. Based    offset determination.
on our random sample, we estimate that:
                                                        SSA needs to improve controls to ensure it accurately
•	 255 beneficiaries were overpaid about $6.6 million
                                                        and timely pays OASDI benefits withheld pending
   because SSA did not take follow up actions after
                                                        an SSI windfall offset determination. We estimate
   these individuals reported they would receive a
                                                        that:
   pension;
•	 670 additional beneficiaries were overpaid about     •	 35,398 beneficiaries had SSI windfall offset
   $6 million because GPO was not timely or                actions that were not processed. As a result,
   accurately imposed; and                                 SSA withheld about $306 million in OASDI
                                                           benefits;
•	 1,276 beneficiaries had incorrect pension
   information on the MBR.
                                                        •	 17,067 beneficiaries had SSI windfall offset
This occurred, in part, because SSA did not always         actions that were incorrectly processed. As a
monitor beneficiaries’ pension entitlement dates or        result, SSA improperly withheld or overpaid
take prompt action to initiate GPO actions.                about $51.5 million in OASDI benefits; and
We recommended that SSA: (1) identify and take
                                                        •	 60,051 beneficiaries had SSI windfall offset
corrective action, as appropriate, for the population
                                                           actions that were correctly processed but not in
of beneficiaries who have a pension entitlement date
                                                           a timely manner. As a result, these beneficiaries
before May 2007; (2) ensure Regular Transcript
                                                           did not promptly receive about $725.9 million
Attainment and Selection Pass generates follow up
                                                           in OASDI benefits.
alerts until the future pension entitlement date on
the MBR is updated or removed; and (3) remind
                                                        We recommended that SSA: (1) take appropriate
employees to update the MBR when the future
                                                        action to complete the SSI windfall offset
pension entitlement date has changed. SSA agreed
                                                        determinations and release the withheld OASDI
with all our recommendations.
                                                        benefits for the 83 beneficiaries whose offset actions
                                                        were not processed or incorrectly processed, as
                                                        identified by our audit; (2) develop a plan to (a)

October 1, 2011 - March 31, 2012                                                                            21
Semiannual Report to Congress




identify and resolve the backlog of OASDI
beneficiaries with pending SSI windfall offset
determinations; and (b) take corrective action on the
remaining population of 52,382 OASDI beneficiaries
whose SSI windfall offset actions were not processed
or were incorrectly processed; and (3) implement
additional controls to ensure SSI windfall offset
actions are processed accurately and timely. SSA
agreed with Recommendations 1 and 3, and partially
agreed with Recommendation 2.




22                                                      October 1, 2011 - March 31, 2012
                                                                                Semiannual Report to Congress




 Value Attained Through                                   The following case summaries are representative
                                                          of the more than 3,800 investigations we closed
 Investigations                                           during this reporting period. They illustrate the
                                                          many instances where our investigative efforts have
 During this reporting period, the efforts of our
                                                          resulted in a significant return on investment.
 investigators yielded significant results arising
 from the successful prosecution of cases that            Deceased Payee Fraud: Man Collects His
 we developed and the disposition of claims we            Deceased Mother’s Benefits for Over 39 Years
 investigated. Our investigators achieved over $253
 million in monetary accomplishments, with over           In response to information provided by the Bristol,
 $52 million in SSA recoveries, restitution, fines, and   Virginia SSA office, our Charleston, West Virginia
 settlements/judgments; and almost $201 million in        office investigated a man who failed to notify SSA
 projected savings from investigations resulting in the   that his mother died in May 1971, and continued
 suspension, denial or termination of benefits.           to receive her SSA Title II retirement benefits. For
                                                          over 39 years, from May 1971 to April 2011, the
 The following table represents the efforts of our
                                                          man converted $318,492 of his mother’s benefits to
 personnel, nationwide, to recover SSA funds paid in
                                                          his own use.
 fraudulent benefits or through other illegal actions,
 or through the denial of benefits.                       In January 2012, after the man pled guilty to false
                                                          statements and theft of government money, a U.S.
                                                          District Court judge sentenced the man to 2 years
                                                          in prison, 3 years’ probation, and ordered the man to
                                                          pay restitution of $318,492 to SSA.
              SSA Funds Reported
                                       10/1/11-3/31/12    Deceased Payee Fraud: Dallas Woman Collects
                                                          Title II Retirement Benefits Intended for
Recoveries                                $26,325,718
                                                          Deceased Mother
Fines                                     $2,039,761      Our Dallas office, with the cooperation of the
Settlements/Judgments                     $1,573,756      U.S. Secret Service, initiated this case in response
                                                          to information provided by the Pleasant Grove,
Restitution                               $22,835,877     Texas SSA office. The investigation revealed that a
Estimated Savings                        $200,659,741     woman failed to notify SSA of her mother’s death in
                                                          November 1985, and continued to receive $179,824
TOTAL                                    $253,434,853     of her deceased mother’s Title II retirement benefits.
                                                          On December 2, 2011, after the daughter pled guilty
                                                          to theft of government property, a U.S. District Court
                                                          judge sentenced her to 6 months in prison and 6
                                                          months’ home confinement, and ordered the woman
                                                          to pay restitution of $179,824 to SSA.




 October 1, 2011 - March 31, 2012                                                                            23
Semiannual Report to Congress




Deceased Payee Fraud: Woman Sentenced to                 In November 2011, following his guilty plea to
Prison for Receiving Father’s Benefits for 10            theft of government property, concealment of work
Years                                                    activity, and SSN misuse, a U.S. District Court judge
                                                         sentenced the man to 37 months in prison, 3 years’
Based on information provided by the Houston             supervised release, and ordered him to pay restitution
(Southeast), Texas SSA office, our Houston office        of $272,897 to SSA. He was also ordered to pay a
investigated a Texas woman, who failed to inform         special assessment fee of $300.
SSA that her father died in December 1999. From
January 2000 through January 2010, the woman used
the SSA benefits deposited into the deceased’s bank      SSN Misuse: Woman Used Sister’s ID to
account.                                                 Obtain SSA Disability Benefits
In February 2012, after she pled guilty to felony        Our Philadelphia office investigated a woman who
theft, a Harris County, Texas District Court judge       used her sister’s identity to receive Social Security
sentenced her to 2 years in prison, and ordered her      Title II disability benefits for approximately 16
to pay restitution of $158,540 to SSA.                   years. As a result, the woman fraudulently received
                                                         $305,844 in benefits.

Deceased Payee Fraud: Man Collects Deceased              In December 2011, after the woman pled guilty to
Grandfather’s Retirement Benefits for 27 Years           theft of government property and aggravated identity
                                                         theft, a U.S. District Court judge sentenced her to
Acting on a referral from the Oklahoma City,             30 months in prison, 3 years’ supervised probation,
Oklahoma SSA office, our Oklahoma City office            a psychiatric evaluation, participation in vocational
investigated a man who failed to notify SSA that         and educational training, and 50 hours of community
his grandfather died in March 1983, and continued        service. In addition, the judge ordered her to pay
to collect the deceased’s Title II retirement benefits   restitution of $305,844 to SSA.
through December 2010. The grandson, who was
the deceased’s representative payee, confessed to
fraudulently receiving $337,239 of his grandfather’s     SSN Misuse: Driver’s License Photos Show
SSA benefits.                                            Fraudster Using Two Identities
In January 2012, following his plea of guilty to theft   Agents from our Kansas City, Missouri office
of Social Security monies and false statements, a U.S.   investigated a man who used his birth name and an
District Court judge sentenced the grandson to 30        adopted name to perpetrate Social Security fraud.
months in prison, 3 years’ probation, and ordered him    The driver’s license photographs of the man verified
to pay restitution of $78,945 to SSA (this represents    that he was using two different identities—one for
the last 5 years of the deceased’s benefits).            employment and the other to obtain Title II disability
                                                         benefits. The man received over $160,000 in SSA
                                                         benefits for which he was not eligible.
SSN Misuse:       61-Year-old Florida Man
                                                         In January 2012, based on his guilty plea to Social
Sentenced for ID Theft
                                                         Security fraud, a U.S. District Court judge sentenced
Agents in our Atlanta field division investigated        the man to 3 years’ probation, and ordered him to pay
a 61-year-old Florida man who was using two              restitution of $162,454 to SSA.
identities. The individual, who concealed his work
activity under one name, was receiving SSI under
another name, and had two Florida driver’s licenses
in different names.

24                                                                           October 1, 2011 - March 31, 2012
                                                                                  Semiannual Report to Congress




SSN Misuse: False ID Scheme Leads to                      Ireland to testify at the trial, and a special assessment
Sentence of 8 Years in Prison                             fee of $700.

Agents from our Seattle, Washington office, working
in conjunction with agents from Homeland Security         SSN Misuse: Identity Thief Ordered to Pay
Investigations, the Department of State/Diplomatic        Restitution to ID Theft Victim
Security Service, and local authorities, investigated
an individual who used another person’s identity          Our Las Vegas, Nevada office investigated a man
to apply for Federal and state benefits including         who assumed another person’s identity. In 1979, the
SSI food stamps, and medical assistance. Using            man left his wife and three children in Chicago, and
fraudulent documents, the previously deported man         assumed the name and the SSN of an Arizona resident.
obtained a U.S. passport, SSN and military service        The man was declared dead, and SSA paid Title II
cards. The investigation revealed that this individual    survivors benefits to the man’s family in Chicago. The
fraudulently received more than $128,000 in SSI           Arizona resident received repeated demands from the
and $27,000 in food stamps and medical assistance.        IRS for unpaid taxes.

In December 2011, after a jury convicted him of SSI       On January 31, 2012, after the man pled guilty to
fraud, a U. S. District Court judge, sentenced him to     felony driver’s license fraud, a Las Vegas District
8 years in prison and 36 months’ supervised release.      Court judge sentenced him to 48 months in prison
He was also ordered to pay restitution of $128,245 to     (suspended), 3 years’ probation, and ordered him to pay
SSA, $27,185 to the Washington State Department           restitution of $90,054; $78,637 to SSA and $11,417
of Social and Health Services, and a $4,300 special       to the victim.
assessment fee.


SSN Misuse: Russian National Sentenced to 4
Years in Prison for ID Theft
Our Boston, Massachusetts office investigated
a Russian national who stole the identity of an
individual who resided in Ireland and held dual
citizenship in the United States and Ireland. The
Ireland resident discovered through Facebook
that another person was using his identity. The
investigation revealed that the Russian national
fraudulently obtained a Rhode Island driver’s
license, SSN card, U.S. passport, a residential
mortgage of $260,000, and over $14,000 in Federal
student loans. He also married two Russian women
who incorrectly received U.S. citizenship because of
his scheme.
In December 2011, after a jury convicted the Russian
national of SSI fraud, a U.S. District Court judge,
District of Rhode Island, sentenced him to 48 months
in prison and 3 years’ supervised release. In addition,
the judge ordered the man to pay restitution. of $850
to the victim for wages lost due to his travel from
October 1, 2011 - March 31, 2012                                                                                25
Semiannual Report to Congress




Cooperative Disability                                     The California DDS denied the man’s claim.
Investigations Program
                                                           Florida Woman Feigns Multiple Disabilites
The CDI program continues to be one of our most
successful initiatives, contributing to the integrity of   Our Tampa, Florida CDI unit investigated a
SSA’s disability programs. CDI is a joint effort of the    49-year-old woman who applied for Title II
OIG, SSA, disability determination services (DDS),         disability benefits due to undifferentiated connective
and state and local law enforcement personnel.             tissue disorder, fibromyalgia, post traumatic stress
Established in 1998 with units in just five states, the    disorder (PTSD), agoraphobia, and depression.
CDI program now has 25 units in 22 states. The units       The Florida Division of Disability Determination
work to obtain sufficient evidence to identify and         (DDD) referred this case due to inconsistencies in
resolve issues of fraud and abuse related to initial and   the medical evidence and the alleged impairments.
continuing disability claims.                              The various SSA forms detailing the woman’s
                                                           functional limitations indicated that her limitations
The following CDI case summaries highlight major
                                                           were severe and debilitating. She reported that she
investigations we conducted during this reporting
                                                           could not perform household chores due to pain and
period that enhanced SSA program integrity and the
                                                           fatigue, and could only stand or walk for 15 minutes.
reliability of SSA’s operations.
                                                           CDI unit investigators observed the woman leaving
                                                           her house and talking on a cell phone, while retrieving
Man Remodeling House Claims Disability                     her mail. She walked without any assistive devices
                                                           and did not display any apparent discomfort. After
Our Los Angeles, California CDI unit investigated
                                                           retrieving the mail, she walked briskly back into
a 30-year-old man who applied for Title II disability
                                                           her home. In addition, the woman was observed
benefits due to a bulging disc and extrusion. The
                                                           performing vigorous yard work, such as trimming
man’s SSA Function report, indicated that he could
                                                           hedges with a power saw for 20 minutes. During this
not lift more than 10 pounds and that he needed
                                                           time, she was walking, lifting, bending, squatting, and
help with household chores, such as making the bed,
                                                           using both hands to clear shrubs and branches from
taking out the trash, mopping the floor, and cleaning
                                                           her front yard.
the windows. The California DDS referred the case
to the unit due to suspected malingering.                  The Florida DDD denied the woman’s claim.
CDI unit investigators interviewed a witness, who
saw the man with a construction worker who was
                                                           Washington Man Feigns Mental Disorder
remodeling the man’s house. The witness stated
                                                           While Applying for Disability Benefits
that the man appeared normal and did not exhibit           Our Seattle, Washington CDI unit investigated a
any physical difficulties or impairments. CDI unit         25-year-old man who applied for Title II disability
investigators observed the man and an unidentified         benefits and SSI based on a mental disorder, low IQ,
adult male shoveling concrete or cement with metal         and difficulty reading and writing. The Washington
shovels for about 15 minutes in the man’s yard. During     DDS referred this case after becoming concerned
a 20-minute interview, investigators observed that         about the inconsistent reports from several mental
the man remained standing the entire time without          evaluations, which included variations of over
difficulty, his hair was disheveled from working in his    20 points in his IQ score. Additionally, there was
yard, and paint stains covered his clothes. The man        information indicating that the man may be a full-
was alert, coherent, focused, comprehended and spoke       time college student. He reportedly told the DDS
English, understood and responded to questions             that he was homeless.
without difficulty, and recalled detailed information.
                                                           During an interview with the CDI investigator, the

26                                                                             October 1, 2011 - March 31, 2012
                                                                                  Semiannual Report to Congress




man admitted that he graduated with a bachelor            Man Exaggerates Severity of His Conditions to
of arts degree in business, and had been working          Receive Disability Benefits
full-time for the previous eight months as a bank
teller. The man talked about playing basketball for       Our Denver, Colorado CDI unit investigated a
the college he attended, and stated he is still an        43-year-old man who applied for Title II and
avid basketball player currently playing in several       SSI disability benefits due to paranoia, PTSD,
recreational leagues. The man was able to read and        depression, anxiety, anger issues, blindness in the
write without any difficulties, contrary to his alleged   right eye, acute teeth grinding, sleep disorder, and
disabilities stated in his application for benefits. He   back problems. The Denver CDI unit initiated
stated that he manages his own financial affairs.         this case due to suspicions that the man may be
                                                          exaggerating the severity of his medical conditions
The Washington DDS denied the man’s claim.                because his allegations were inconsistent and he had
                                                          limited medical treatment.
                                                          During an interview at the SSA office, the claims
Man Assumes Second Identity to Conceal
                                                          representative observed that the man had no
Work Activity
                                                          marked difficulties and noted that the man’s father
After receiving an anonymous letter, our Seattle,         accompanied him. The man stated that he wanted to
Washington CDI unit investigated a 36-year-               work and filed for disability to avert financial distress
old man who pretended to be mentally retarded             to his parents. The man stated that he is attempting
in order to receive SSI disability benefits. The          a career in music, and that he walks, drives a car,
letter further alleged that the man might have a          rides a bicycle, uses public transportation, and rides
second identity with a valid SSN. The CDI unit            a horse. The man has several social networking sites,
investigation confirmed that the man did have             including a MySpace account, which references
another SSN assigned to him, and that he used it          his membership in several different bands and an
to conceal his work activity of buying and selling        interview by a web blogger. On the band’s web page,
cars, trucks, and recreational vehicles in an effort to   the man is listed as the booking agent and press
continue to receive his disability benefits. In January   contact, and his father is listed as the manager. Also,
2012, after pleading guilty to Social Security fraud,     the investigation found that the man had received
a U.S. District Court judge, Western District of          weekly unemployment benefits from July 2010 to
Washington, sentenced the man to serve 27 months          May 2011.
in Federal prison and 3 years of supervised release.
                                                          When interviewed by CDI investigators, the
In addition, the judge ordered him to pay restitution
                                                          man related well, was well-spoken, and he clearly
of $85,439 to SSA and $112,686 to the State of
                                                          understood his surroundings and the questions asked.
Washington.
                                                          The man was able to focus and was very friendly and
                                                          helpful. He did not seem nervous or anxious about
                                                          the investigators’ presence.
                                                          The Colorado DDS denied the man’s claim.




October 1, 2011 - March 31, 2012                                                                                27
Semiannual Report to Congress




The following table highlights the successes of the CDI program, which yielded more than $173 million in SSA
program savings during this reporting period:




                         Cooperative Disability Investigations Program Results


                                           Allegations                 Confirmed Fraud                      SSA Savings1                       Non-SSA
               State                        Received                        Cases                                                              Savings2

          Arizona                                172                               74                            $6,395,965                       $3,932,699
         California3                             553                              200                           $15,846,014                      $13,455,700
         Colorado                                112                               81                            $7,249,832                       $4,220,726
          Florida                                 84                               32                            $2,411,146                       $1,686,674
          Georgia                                127                              102                            $8,516,605                       $5,088,828
          Illinois                                71                               65                            $5,339,957                       $2,873,761
         Kentucky                                138                              68                             $5,585,177                       $3,164,751
         Louisiana                               130                               68                            $5,912,976                       $3,725,303
       Massachusetts                             117                               77                            $6,881,151                       $5,323,695
        Mississippi4                              23                                6                              $504,365                         $239,005
         Missouri5                               255                              141                            $11,163709                       $7,591,926
         New Jersey                               88                               34                            $3,064,250                       $2,154,408
         New York                                 48                               41                            $3,522,282                       $2,220,592
           Ohio                                  318                              120                            $9,877,155                       $7,362,016
         Oklahoma                                144                               68                            $6,159,863                       $3,029,994
          Oregon                                 167                              143                           $12,544,695                       $8,602,924
       South Carolina                            160                              146                           $11,390,590                       $7,646,654
         Tennessee                                69                              99                             $8,922,375                       $4,982,465
           Texas6                                254                              177                           $14,908,878                      $10,010,290
           Utah                                  179                               80                            $7,066,426                       $3,962,645
          Virginia                               134                              102                            $9,282,875                       $7,139,554
        Washington                               185                              151                           $11,018,184                       $7,169,434
     Total (10/1/11-3/31/12)                    3,528                            2,075                         $173,564,470                     $115,584,044
     1 SSA program savings are reported at a flat rate of $90,125 for initial claims that are denied as a result of CDI investigations. When a CDI investigation
     supports the cessation /termination of an in-pay case, SSA program savings are calculated using a formula that takes into account the average number of years
     that SSA has determined that a person remains on its rolls, as well as the total percentage of CDRs that resulted in a suspension, termination, or reduction in
     benefits due to CDI investigations.
     2 Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits as a result of a CDI investigation, using
     estimated or actual benefit amounts documented by the responsible agency.
     3 California has two units, one in Los Angeles and the other in Oakland.
     4 One new CDI unit became operational during this reporting period. The unit is located in Jackson, Mississippi.
     5 Missouri has two units, one in Kansas City and the other in St. Louis.
     6 Texas has two units, one in Dallas and the other in Houston.




28                                                                                                                              October 1, 2011 - March 31, 2012
                                                                               Semiannual Report to Congress




Value Attained Through Legal                             California Home Health Aide Conceals Work
                                                         Activity
Initiatives
                                                         A California home health aide applied for Disability
Section 1129 Enforcement                                 Insurance Benefits (DIB) and failed to report that
                                                         she returned to work three months later. For three
OCIG’s CMP program targeting violations of               years, she made numerous false statements and
Section 1129 of the Act maximizes resources              failed to notify SSA of her return to work. Instead,
available and creates a positive return on investment.   she continued to work and simultaneously collect
Section 1129 authorizes a CMP against those              improper benefits. Consequently, she unlawfully
who make false statements or representations in          received disability benefits while engaging in
connection with obtaining or retaining benefits or       substantial gainful activity (SGA).
payments under Titles II, VIII, or XVI of the Act. In
addition, CMPs may penalize representative payees        As a result of an OCIG CMP 1129 action, she
for wrongful conversion of payments and to penalize      admitted that the state of California paid her a
individuals who knowingly withhold a material fact       salary to provide in-home health services. OCIG
from SSA. After consultation with the DOJ, we            negotiated a settlement in which she agreed to pay
are authorized to impose penalties of up to $5,000       a $10,000 penalty and an assessment of $80,280, for
for each false statement, representation, conversion,    a total recovery of $90,280.
or omission. A person may also be subject to an
assessment, in lieu of damages, of up to twice the
amount of any resulting overpayment. The following
table and cases highlight the value achieved through     Massachusetts Used Car Dealer Conceals Work
our Section 1129 efforts for this reporting period:      Activity
                                                         A Massachusetts used car dealer applied for SSI
                                                         and failed to report that he owned and operated
   Civil Monetary Penalty Activity                       his own business. He was deemed eligible and
               Under                                     began receiving SSI based on his claims that he
            Section 1129                                 was unable to work due to a combination of mental
                                     10/1/11 - 3/31/12   and physical impairments. He made numerous false
                                                         statements to facilitate his improper receipt of SSI
 Cases Received                          1,003           benefits while engaging in SGA for more than four
                                                         years.
 Cases Initiated                          104
 Cases Closed                             941            He confessed to an OIG special agent that he
                                                         owned and operated the business for the past four
 Penalties and Assessments Imposed    $4,615,334
                                                         years. In a CMP 1129 action, OCIG negotiated a
 Number of Hearings Requested              18            settlement in which he will pay a $5,000 penalty
Cases Successfully Resolved                              and an assessment of $30,029, for a total recovery
(settled case, favorable                   96            of $35,029.
judgment, or penalty imposed)




October 1, 2011 - March 31, 2012                                                                          29
Semiannual Report to Congress




Nevada Man Fails to Notify SSA of Father’s              improperly receiving auxiliary benefits on behalf
Death                                                   of his minor son. An OIG investigation confirmed
                                                        that he did not send these benefits to his son.
A Nevada man failed to notify SSA of the death
of his father for seven years. During that time, he     During our CMP action, the subject admitted that
continued to receive his father’s Social Security       his son did not reside with him. He agreed to pay a
retirement benefits by paper check in the mail.         $5,000 penalty and an assessment of $24,954, for a
Each month, he endorsed and negotiated a check          total recovery of $29,954.
by forging his deceased father’s signature.
Although he knew that he was not entitled to
receive his father’s retirement benefits, the subject   Oregon Woman Fails to Notify SSA of Mother’s
failed to notify SSA of his father’s death and used     Death
the benefits for his own benefit. After an OCIG         An Oregon woman failed to notify SSA of her
CMP negotiation, he agreed to pay a $15,000 civil
                                                        mother’s July 2009 death. Between August 2009
monetary penalty and a $15,794 assessment, for a
                                                        and May 2011, SSA deposited more than $18,000
total recovery of $30,794.
                                                        in widow’s benefits into a bank account jointly
                                                        held by the woman and her deceased mother.
Texas Representative Payee Misrepresents                She continued to withdraw her mother’s widow’s
Income, Resources, and Living Arrangements              benefits from the joint account and used the funds
                                                        for her own needs. OCIG initiated a CMP action
A Texas woman serving as the representative payee       and ultimately negotiated a settlement agreement
for her two children repeatedly reported that her       in which the woman agreed to pay a total CMP of
husband neither lived with her, nor provided any        $39,950, which included a $22,000 penalty and a
income to support the family. She made these false
                                                        $17,950 assessment in lieu of damages.
statements to facilitate her continued improper
receipt of SSI on the children’s behalf.
An OIG special agent interviewed the subject and        California Woman Uses            Benefits    After
her husband at their home. During the interview,        Grandmother’s Death
the subject admitted that she failed to report her
husband’s income and his true living arrangements.      A California woman was a joint account holder on
Her husband admitted that he had an annual income       an account into which her grandmother’s Title II
in excess of $100,000. After a CMP action, OCIG         benefits were deposited. After the beneficiary died
negotiated a settlement with the subject’s attorney,    in February 2007, the subject failed to notify SSA
under which the subject agreed to pay a $5,000          of her grandmother’s death and transferred the
penalty and an assessment of $46,484, for a total       money that continued to be deposited into that
recovery of $51,484.                                    joint account into her own personal bank account
                                                        until May 2010. She defrauded the government of
                                                        $36,575. OCIG imposed a $10,000 penalty and an
A Florida Representative Payee Makes False              assessment of $36,575, for a total CMP of $46,575.
Statements Regarding His Son
On two representative payee reports, a Florida
disability beneficiary reported that his son resided
with him and that he used all of the benefits for
his son’s care and support. Although the son was
actually residing in another state with his mother,
the subject made these false statements to continue

30                                                                         October 1, 2011 - March 31, 2012
                                                                               Semiannual Report to Congress




Utah Woman Fails to Report Son was Removed               Minnesota Woman Collects Benefits Under
from her Custody                                         One SSN and Works Under Another
While serving as the representative payee for her        For more than 17 years, a Minnesota woman worked
son, a Utah mother failed to notify SSA that the         under one SSN and collected SSI under another. As
State of Utah took custody of her son. She received      a result, she received more than $32,000 in improper
and spent almost $8,000 in Survivor’s benefits           SSI benefits. The woman agreed to pay a CMP of
issued for her son’s care over an 11-month period.       $63,000, which included a $30,000 penalty and a
OCIG negotiated a settlement agreement pursuant          $33,000 assessment in lieu of damages.
to which she agreed to pay a total CMP of $35,600.
                                                         South Carolina Man Fails to Notify SSA of
Michigan Man Used Fake Identity to Receive               Mother’s Death
Benefits
                                                         A South Carolina man continued to receive his
A Michigan man created a new identity to hide            mother’s Title II Social Security benefits for more
from a drug-related debt and receive Retirement          than three years after her death. The man was a joint
Insurance benefits (RIB) before he was entitled.         bank account holder with his mother at a local bank.
The man applied for RIB using a date of birth            After she died in September 2006, the mother’s
that made him immediately eligible for benefits.         Social Security benefits continued to be deposited
He improperly received more than $21,000 from            into their joint account, and the subject wrongfully
SSA. OCIG negotiated a settlement agreement              converted $54,033 for his own use until the OIG
pursuant to which the man agreed to pay $31,403          detected his fraud in February 2010. OCIG was able
CMP, including a $10,000 penalty and a $21,403           to negotiate a settlement in which the man agreed
assessment in lieu of damages.                           to pay a $5,000 penalty and a $54,033 assessment,
                                                         for a total CMP of $59,033.
Washington State Woman Conceals Marriage
A Washington State woman concealed her marriage
in order to continue receiving SSI. During an
investigation, we learned that the woman’s husband
earned substantial income and that the couple owned
several luxury vehicles. As a result of concealing her
five-year marriage, the woman received more than
$18,000 in SSI. OCIG negotiated a settlement in
which the woman agreed to pay a $38,844 CMP,
including a $20,000 penalty and an $18,844
assessment in lieu of damages.




October 1, 2011 - March 31, 2012                                                                           31
Semiannual Report to Congress




PEOPLE                                                   Moreover, OIG managers monitor staffing to ensure
                                                         that vacant positions are filled promptly, ensuring
The third goal of the OIG Strategic Plan is enhancing    that OIG components have the ability to fulfill their
the work experience of our employees. The collective     respective missions.
effort of our employees continues to be the driving
                                                         We continuously works to recruit and retain a
force behind our organization’s success in meeting its
                                                         workforce representative of the civilian labor force.
mission. We provide an encouraging and rewarding
                                                         We hired 12 employees during the first half of FY
work experience with the goal of retaining these
                                                         2012. Of these 12, five indviduals (42 percent of new
exceptional individuals. OIG leadership fosters
                                                         hires) were from minority groups.
an environment where employees can realize their
potential through training and developmental             Once we identify the best candidates, we utilize
programs. OIG components convene training sessions       a structured interview process to equitably assess
to inform their employees about new procedures at        candidates’ skills and qualifications. This process has
various levels of our organization. In addition, the     been instrumental in predicting the future success
OIG Organizational Health Committee conducts             of new employees.
an annual assessment of employee satisfaction levels
and addresses employee concerns.                         The OIG recently announced a series of internal
                                                         professional developmental assignment opportunities
                                                         that supplement our formal Leadership Development
Budget                                                   Program. The OIG Professional Development Series
                                                         offers competitive headquarters and field assignments
For FY 2012, our annual appropriation is $102.2          of 120 days or longer and provides qualified employees
million, which supports an estimated end-of year         with the opportunity to acquire new skills and talents.
staffing level of 578. The salaries and benefits of
our employees account for 87 percent of overall          Our succession planning and knowledge-transfer
spending. The remaining 13 percent is used               strategies focus on creating a culture to ensure
for necessary expenses such as travel, training,         smart recruitment, tailored internal training,
communications, reimbursable work authorizations,        effective leadership transition efforts, and reciprocal
and general procurements, as well as to provide          developmental programs. In addition to participating
for basic infrastructure needs such as rent and          with Agency developmental programs, we continue
interagency service agreements. The FY 2012              to expand current developmental programs to utilize
budget supports our efforts to meet and exceed the       knowledge transfer practices, bridge knowledge gaps,
expectations set forth in the OIG Strategic Plan for     and drive innovation for organizational performance
Fiscal Years 2011 – 2015, second edition. The goals      improvement.
and accomplishments measured in the Strategic
Plan are also published in the Annual Congressional
Budget Justification.


Human Resource Planning and
Management
We actively pursue and work to retain the best
possible employees. First, our staffing plan forecasts
employee departures based on historical trends and
human resource data, which allows us to establish
optimal timeframes for recruiting new employees.
32                                                                           October 1, 2011 - March 31, 2012
                                                                                  Semiannual Report to Congress




Information Technology                                     Outreach Efforts
During this reporting period, OIG information              We are always seeking new ways to reach out to
technology (IT) specialists have been working to           the wider Federal community as well as to public
update and improve the OIG systems environment.            citizens. In a variety of venues, we share our mission
This includes migration to a new infrastructure            of promoting integrity and excellence in Social
platform to provide redundancy and failover for            Security programs and operations. These occasions
OIG applications and data including our National           are important opportunities to exchange information
Investigative Case Management System, as well as           and forge partnerships. They also give us the chance
an upgrade of our Business Process Management              to educate and inspire public confidence in Federal
software which provides workflows and approval             programs. The following activities took place during
chains for automated OIG business processes. We            the month of October, 2011:
are also working to implement business intelligence
software to provide enhanced management                    •	 The resident agent-in-charge of our Denver field
information to OIG executives and managers. Once              division gave a presentation, as part of the Identity
these upgrades have been completed, we will continue          Theft Discussion Panel, during the Utah White
to automate our existing business processes in an             Collar Fraud Conference held in Salt Lake City.
effort to decrease costs and increase efficiency.
                                                           •	 The special agent-in-charge (SAC) of our
Additionally, we continued to expand our telework             Chicago field division hosted the Chicago IG
program, adding 50 percent more participants, with            Council Meeting. In attendance were SACs
plans for additional expansion by the end of the              from various IG offices based in the Chicago
year. We also made improvements to our telework               area, including Cook County. Also in attendance
infrastructure for increased capacity and improved            was a seven-member delegation from the Czech
performance. The technologies we implemented                  Republic (prosecutors, police officers, and judges)
allow for a productive remote workforce without               who were interested in the method offices of
sacrificing the security of sensitive information. These      inspector general employ to combat governmental
steps align the OIG with the goals and requirements           corruption.
of the Telework Enhancement Act of 2010.
                                                           •	 Our Seattle CDI unit hosted a meeting for the
Finally, our IT staff analyzes industry trends to find
                                                              State of Washington DDS and the Department
new technologies that may enhance our business
                                                              of State Health Services. One of our special
processes. During this reporting period, we have
                                                              agents provided a briefing and an outline of our
continued to expand the use of virtual technologies
                                                              CDI Unit program to new executives and state
and have begun to pilot virtual desktop infrastructure
                                                              investigators.
for both internal and remote use, to reduce hardware
and deployment costs and enhance data security.            •	 An agent from our Dallas field division was asked
We have also utilized virtualization to decrease the          by the VA to provide a fraud presentation to their
number of physical servers in use, which has reduced          field examiners located at the Veterans Affairs
power consumption and increased system uptime.                regional office in Houston, Texas.
OIG IT specialists continue to meet the challenge
of providing a variety of IT support services for more
than 70 OIG offices throughout the country.




October 1, 2011 - March 31, 2012                                                                                33
Semiannual Report to Congress




•	 A CDI team leader from our Kansas City field
   division provided information concerning our
   CDI program, including the referral of suspected
   cases of fraud, to the Organized Retail Crime
   Coalition in Overland Park, Kansas.

•	 The SAC of our Philadelphia field division
   attended the International Association of
   Chiefs of Police Conference in Chicago, Illinois
   and represented the SSA/OIG on the Police
   Investigative Operations Committee.                       A Special Thank You
•	 The Atlanta Audit Division participated in
   numerous initiatives to assist victims of the April
   2011 and January 2012 tornadoes in Alabama.
                                                          The diligent work, outstanding
   These efforts included providing monetary
                                                          efforts, and many contributions
   support, as well as food, clothing, furniture, and
                                                         of our entire OIG staff make the
   other supplies for numerous families who lost
                                                           accomplishments highlighted
   their homes and all belongings.
                                                            in this Semiannual Report to
                                                                  Congress possible.
•	 The Deputy Assistant Inspector General for
   Audit gave a presentation on audits the OIG
   has done to identify improper payments to the
                                                         We would like to thank them for
   Federal Audit Executive Council.
                                                         their dedicated spirit and many
                                                                    successes.




34                                                                  October 1, 2011 - March 31, 2012
                                                      Semiannual Report to Congress




                   R eporting R equirements
                                       and
                                   A ppendices




                                                 Reporting Requirements  •

October 1, 2011 - March 31, 2012                                                35
Semiannual Report to Congress




                 Reporting Requirements
                 This report meets the requirements of the Inspector General Act of 1978, as amended, and
                 includes information mandated by Congress.



                        Section                              Requirement                               Page(s)

                      Section 4(a)(2)    Review of legislation and regulations                           N/A


                      Section 5(a)(1)    Significant problems, abuses, and deficiencies                  7-34


                      Section 5(a)(2)    Recommendations with respect to significant problems,           7-11
                                         abuses, and deficiencies                                       20-22

                      Section 5(a)(3)    Recommendations described in previous Semiannual              Appendix
                                         Reports on which corrective actions are incomplete             F&G

                      Section 5(a)(4)    Matters referred to prospective authorities and the            14-19
                                         prosecutions and convictions that have resulted                23-31

                     Section 5(a)(5) &
                                         Summary of instances where information was refused              N/A
                      Section 6(b)(2)


                      Section 5(a)(6)    List of audits                                               Appendix B

                                                                                                         7-11
                      Section 5(a)(7)    Summary of particularly significant reports
                                                                                                        20-22

                                         Table showing the total number of audit reports and total
                      Section 5(a)(8)                                                                 Appendix A
                                         dollar value of questioned costs

                                         Table showing the total number of audit reports and total
                      Section 5(a)(9)                                                                 Appendix A
                                         dollar value of funds put to better use

                                         Audit recommendations more than 6 months old for
                     Section 5(a)(10)                                                                 Appendix A
                                         which no management decision has been made

                                         Significant management decisions that were revised
                     Section 5(a)(11)                                                                    N/A
                                         during the reporting period

                                         Significant management decisions with which the
                     Section 5(a)(12)                                                                 Appendix D
                                         Inspector General disagrees




36                                                                                        October 1, 2011 - March 31, 2012
                                                                                                     Semiannual Report to Congress




       Appendix A. Resolving Audit Recommendations
       The following chart summarizes SSA’s responses to our recommendations for the recovery
       or redirection of questioned and unsupported costs. Questioned costs are those costs that are
       challenged because of a violation of law, regulation, etc. Unsupported costs are those costs that
       are questioned because they are not justified by adequate documentation. This information is
       provided in accordance with P.L. 96-304 (the Supplemental Appropriations and Recession Act of
       1980) and the Inspector General Act of 1978, as amended.


                         Reports with Questioned Costs for the Reporting Period
                                         October 1, 2011 – March 31, 2012
                                                                                    Value                Value
                                                                 Number
                                                                                  Questioned          Unsupported
            A.	For which no management decision had
               been made by the commencement of the                  17          $1,457,406,295            $663,862
               reporting period.
            B.	Which were issued during the reporting
                                                                     14a         $1,034,075,561                  $0
               period.


            	 Subtotal (A + B)                                       31b         $2,491,481,856            $663,862


            	Less:


            C.	For which a management decision was
                                                                     14          $1,707,340,068            $599,685
               made during the reporting period.


            	 i.	 Dollar value of disallowed costs.                  10          $1,421,187,517            $158,346


            	 ii.	 Dollar value of costs not disallowed.              4            $286,152,551            $441,339

            D.	For which no management decision had
               been made by the end of the reporting                 19            $784,141,788             $64,177
               period.

       a.
            See Reports with Questioned Costs in Appendix B of this report.­
       b.
            For two reports, each have two recommendations; reflected in section Ci., Cii., and D.




October 1, 2011 - March 31, 2012                                                                                               37
Semiannual Report to Congress




                The following chart summarizes SSA’s response to our recommendations that funds be
                put to better use through cost avoidances, budget savings, etc.


                           Reports with Recommendations that Funds Be Put to Better Use
                                Reporting Period October 1, 2011 - March 31, 2012

                                                                                          Number          Dollar Value

                      A. For which no management decision had been made by
                                                                                                4             $828,170,171
                        the commencement of the reporting period.


                      B. Which were issued during the reporting period.                        8a, b      $1,473,298,938


                      		     Subtotal (A + B)                                                  12         $2,301,469,109


                       	 Less:

                      C. For which a management decision was made during
                          the reporting period.
                       i. Dollar value of recommendations that were agreed to
                                                                                                5              $22,577,541
                          by management.

                      (a) Based on proposed management action.                                  5              $22,577,541


                      (b) Based on proposed legislative action.                                 0                      $0


                      ii.	 Dollar value of costs not agreed to by management.                   1               $3,753,490


                      		     Subtotal (i + ii)                                                  6              $26,331,031

                      D.	For which no management decision had been made by
                                                                                                7         $2,275,138,078
                         the end of the reporting period.

                ­a.
                      See Reports with Funds Put to Better Use in Appendix B of this report.
                ­b.
                      One report has three recommendations; one reflected in section C and two reflected in
                       section D.




38                                                                                               October 1, 2011 - March 31, 2012
                                                                                       Semiannual Report to Congress




     Appendix B. Reports Issued
                            Reports with Non-Monetary Findings
                               October 1, 2011 – March 31, 2012
      Audit Number                                Report                                Issue Date

                        Ahtna Engineering Services, LLC, Contract Number
       A-07-11-11140                                                                     10/4/2011
                        SS00-07-60063

                        MAXIMUS' Incurred Cost Proposals for Fiscal Years 2004
       A-15-11-21129                                                                    10/11/2011
                        and 2005 (Limited Distribution)

                        Health Information Technology Provided by Beth Israel
       A-01-11-11117                                                                    10/13/2011
                        Deaconess Medical Center and MedVirginia

                        Training of New Administrative Law Judges at the Office of
       A-12-11-11126                                                                    10/13/2011
                        Disability Adjudication and Review

                        Recovery Act Exchange Contract with Lovelace Clinic
       A-15-11-11157                                                                    10/13/2011
                        Foundation - Contract SS00-10-60030

       A-14-11-11115    The Social Security Administration's eAuthentication Process    10/14/2011

                        Controls for the Annual Wage Reporting Process (Limited
       A-03-11-21162                                                                    10/18/2011
                        Distribution)

                        The Social Security Administration’s Agency-wide Support
       A-14-10-11004                                                                    10/28/2011
                        Services Contract with Lockheed Martin

       A-14-11-11112    The Social Security Administration's Electronic Services        10/28/2011

                        Congressional Response Report. The Social Security
       A-15-11-01117    Administration's Limitation on Administrative Expenses          10/31/2011
                        Appropriation's Transfer Authority

                        Fiscal Year 2011 Inspector General Statement on the
       A-02-12-11231    Social Security Administration's Major Management and            11/4/2011
                        Performance Challenges

                        Follow-up: Physical Security at the Office of Disability
       A-12-11-21190    Adjudication and Review's Headquarters Building (Limited         11/4/2011
                        Distribution)

       A-15-11-11177    Fiscal Year 2011 Financial Statement Audit Oversight             11/7/2011




October 1, 2011 - March 31, 2012                                                                                 39
Semiannual Report to Congress




                                    Reports with Non-Monetary Findings
                                       October 1, 2011 – March 31, 2012
              Audit Number                                Report                                Issue Date

                                Fiscal Year 2011 Evaluation of the Social Security
               A-14-11-01134    Administration's Compliance with the Federal Information        11/14/2011
                                Security Management Act of 2002

                                Follow-up: The Social Security Administration's Program for
               A-08-10-10141                                                                    11/23/2011
                                Issuing Replacement Social Security Cards to Prisoners

                                Collection, Use, and Disclosure of Social Security Numbers in
               A-08-11-11181                                                                    11/28/2011
                                States' Newborn Screening Programs

                                Controls over Social Security Internet Benefit Applications
               A-09-11-21165                                                                     12/7/2011
                                (Limited Distribution)

               A-15-10-20151    The Social Security Administration Cost Allocation Process       12/7/2011

               A-04-11-11105    Controls for Issuing Social Security Number Printouts           12/13/2011

                                State Disability Determination Services' Employee and
               A-15-11-21180                                                                    12/21/2011
                                Contractor Suitability Program

                                Management Advisory Report: Single Audit of the
               A-77-12-00001    Commonwealth of Massachusetts for the Fiscal Year Ended         12/21/2011
                                June 30, 2010

                                Management Advisory Report: Single Audit of State of New
               A-77-12-00002                                                                    12/21/2011
                                Jersey for the Fiscal Year Ended June 30, 2010

                                The Social Security Administration's Reporting of High-
               A-15-11-01140    dollar Overpayments Under Executive Order 13520 in Fiscal       12/30/2011
                                Year 2011

                                Management Advisory Report: Single Audit of the State of
               A-77-12-00003                                                                     1/27/2012
                                Indiana for the Fiscal Year Ended June 30, 2010

               A-15-11-11183    Performance Indicator Audit. Customer Service                    2/7/2012

                                Internal Control Review over the Processing of Social
               A-15-11-11176    Security Number Cards at the Second Support Center               2/9/2012
                                (Limited Distribution)

                                Congressional Response Report. Oversight of Administrative
               A-12-11-01138                                                                     2/14/2012
                                Law Judge Workload Trends




40                                                                                  October 1, 2011 - March 31, 2012
                                                                                       Semiannual Report to Congress




                                   Reports with Non-Monetary Findings
                                    October 1, 2011 – March 31, 2012
           Audit Number                               Report                                Issue Date

                            Summary of Inspector General Reports Related to Executive
           A-01-12-21243                                                                     2/16/2012
                            Order 13520 on Improper Payments

                            The Social Security Administration's Implementation of the
           A-02-10-20102                                                                     2/17/2012
                            Open Government Directive

           A-15-11-11197    Performance Indicator Audit. Improper Payments                    3/1/2012

                            Management Advisory Report. Single Audit of the State of
           A-77-12-00006                                                                      3/6/2012
                            Wisconsin for the Fiscal Year Ended June 30, 2010

                            Congressional Response Report. Oversight of the Year-end
           A-05-12-21254                                                                      3/7/2012
                            Hearings Process

                            Use of the E-Verify Program by the Social Security
           A-03-11-11111                                                                      3/8/2012
                            Administration’s Contractors

                            Dacotah Foundation, an Organizational Representative Payee
           A-06-10-20174                                                                      3/9/2012
                            for the Social Security Administration

           A-01-11-21169    Training at Offices that Make Disability Determinations          3/14/2012


                            The Social Security Administration's Compliance with the
           A-15-12-11244    Improper Payments Elimination and Recovery Act of 2010 in        3/14/2012
                            the Fiscal Year 2011 Performance and Accountability Report


                            Management Advisory Report. Single Audit of the State of
           A-77-12-00005                                                                     3/15/2012
                            California for the Fiscal Year Ended June 30, 2010

                            Congressional Response Report. The Social Security
           A-07-12-21234    Administration's Review of Administrative Law Judges'            3/19/2012
                            Decisions




October 1, 2011 - March 31, 2012                                                                                 41
Semiannual Report to Congress




                                         Reports with Questioned Costs
                                        October 1, 2011 – March 31, 2012

         Audit Number      Issue Date                         Report                           Dollar Amount

                                         Accuracy of Title II Survivors Benefit Transactions
                                         Greater Than $30,000 Processed Through the
          A-04-10-10119    10/11/2011                                                             $1,861,481.00
                                         Manual Adjustment, Credit and Award Process
                                         System

                                         Administrative Costs Claimed by the Maine
          A-01-11-11109    10/12/2011                                                                  $5,857.00
                                         Disability Determination Services

                                         The Social Security Administration's Recovery
                                         Act-funded Contract with International Business
          A-15-11-11113    10/13/2011                                                                  $9,184.00
                                         Machines, Inc., Blanket Purchase Agreement
                                         SS00-08-40004, Call Order 51

                                         Follow-up: Individuals Receiving Benefits
          A-01-10-11008    10/14/2011    Inappropriately Under Multiple Social Security           $2,492,332.00
                                         Numbers at the Same Address

                                         Old-Age, Survivors and Disability Insurance
          A-13-10-10143    11/9/2011     Benefits Affected by State or Local Government         $710,119,660.00
                                         Pensions

                                         Old-Age, Survivors and Disability Insurance
          A-09-11-11130    11/21/2011    Benefits Withheld Pending Supplemental Security        $283,410,290.00
                                         Income Windfall Offset

                                         Follow-up: Individuals Receiving Benefits Under
          A-01-11-11145    1/13/2012     Multiple Social Security Numbers at Different            $2,890,697.00
                                         Addresses

                                         Management Advisory Report. Single Audit of the
          A-77-12-00004    2/16/2012     State of Arizona for the Fiscal Year Ended June 30,        $191,709.00
                                         2010
                                         Supplemental Security Income Recipients
          A-06-10-21066    2/22/2012     Receiving Social Security-administered Payments          $5,475,209.00
                                         in Excess of Federal Limits

                                         The District of Columbia's Child and Family
          A-13-11-11149     3/2/2012     Services Agency, an Organizational Representative          $274,806.00
                                         Payee for the Social Security Administration




42                                                                                 October 1, 2011 - March 31, 2012
                                                                                          Semiannual Report to Congress




                                    Reports with Questioned Costs
                                   October 1, 2011 – March 31, 2012

   Audit Number      Issue Date                          Report                              Dollar Amount

                                    Concurrent Beneficiaries Released from
    A-01-11-21168     3/13/2012     Incarceration Whose Title II Benefits Have Not             $14,402,813.00
                                    Been Reinstated

                                    South Dakota CARES, Inc., an Organizational
    A-06-11-21189     3/14/2012     Representative Payee for the Social Security                     $8,739.00
                                    Administration (Limited Distribution)

                                    Benefit Payments Managed by Representative
    A-13-11-11173     3/19/2012     Payees of Children in the Florida State Foster Care           $300,074.00
                                    Program

                                    Spousal Beneficiaries Who Reported They Were
    A-09-10-21071     3/21/2012                                                                $12,632,710.00
                                    Entitled to a Government Pension


   Total		                                                                                   $1,034,075,561.00




October 1, 2011 - March 31, 2012                                                                                    43
Semiannual Report to Congress




                                    Reports with Funds Put to Better Use
                                        October 1, 2011– March 31, 2012

          Audit Number Issue Date                           Report                            Dollar Amount

                                         The Social Security Administration's Recovery
                                         Act-funded Contract with International
          A-15-11-11113 10/13/2011                                                                   $28,958.00
                                         Business Machines, Inc., Blanket Purchase
                                         Agreement SS00-08-40004, Call Order 51

                                         Follow-up: Individuals Receiving Benefits
          A-01-10-11008 10/14/2011       Inappropriately Under Multiple Social                      $528,655.00
                                         Security Numbers at the Same Address
                                         Old-Age, Survivors and Disability Insurance
          A-13-10-10143     11/9/2011    Benefits Affected by State or Local                  $1,435,538,580.00
                                         Government Pensions
                                         Follow-up: Individuals Receiving Benefits
          A-01-11-11145     1/13/2012    Under Multiple Social Security Numbers at                  $354,070.00
                                         Different Addresses

                                         Beneficiaries in Suspended Payment Status
          A-09-10-11065     2/13/2012    Pending the Selection of a Representative               $30,570,852.00
                                         Payee
                                         Unnecessary Medical Determinations for
          A-01-10-20120     2/21/2012    Supplemental Security Income Disability                   $3,753,490.00
                                         Claims
                                         Supplemental Security Income Recipients
          A-06-10-21066     2/22/2012    Receiving Social Security-administered                    $2,194,103.00
                                         Payments in Excess of Federal Limits
                                         Benefit Payments Managed by Representative
          A-13-11-11173     3/19/2012    Payees of Children in the Florida State Foster             $330,230.00
                                         Care Program


          Total		                                                                             $1,473,298,938.00




44                                                                                   October 1, 2011 - March 31, 2012
                                                                                         Semiannual Report to Congress




       Appendix C. Reporting Requirements Under the
       Omnibus Consolidated Appropriations Act of FY 1997
       To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208,
       we are providing requisite data for the first half of FY 2012 from the Offices of Investigations
       and Audit in this report.
       Office of Investigations
       We are reporting over $52 million in SSA funds as a result of our investigative activities in this
       reporting period (10/1/11 – 3/31/12). These funds are broken down in the table below.

                                             Investigative Activities

                            1st Quarter                   2nd Quarter
                                                                                              Total
                         10/1/11 – 12/31/11             1/1/12 – 3/31/12

           Court
          Ordered              $7,905,505                  $14,930,372                     $22,835,877
         Restitution

         Recoveries           $13,019,445                  $13,306,273                     $26,325,718


            Fines               $945,438                    $1,094,323                      $2,039,761


         Settlements/
                                $484,000                    $1,089,756                      $1,573,756
          Judgments


          TOTAL               $22,354,388                  $30,420,724                     $52,775,112



       Office of Audit
       SSA management informed us that it has completed implementing recommendations from 7 audit reports
       during this time period valued at over $154 million.
       BENEFICIARIES IN SUSPENDED PAYMENT STATUS PENDING THE SELECTION OF
       THE REPRESENTATIVE PAYEE (A-09-10-11065, 2/13/2012)
       We recommended that SSA remind employees to pay legally competent adult beneficiaries directly on an
       interim basis while it searches for a representative payee. The implemented value of this recommendation
       is $18,143,038.




October 1, 2011 - March 31, 2012                                                                                   45
Semiannual Report to Congress




              FOLLOW-UP. INDIVIDUALS RECEIVING BENEFITS INAPPROPRIATELY UNDER
              MULTIPLE SOCIAL SECURITY NUMBERS AT THE SAME ADDRESS (A-01-10-11008,
              10/14/2011)
              We recommended that SSA work with our Office of Investigations and assess overpayments where
              appropriate. The implemented value of this recommendation is $2,492,332 in questioned costs
              and$528,655 in funds to put to better use.
              THE SOCIAL SECURITY ADMINISTRATION’S RECOVERY ACT-F UNDED
              CONTRACT WITH INTERNATIONAL BUSINESS MACHINES, INC., BLANKET
              PURCHASE AGREEMENT SS00-08-40004, CALL ORDER 51 (A-15-11-11113, 10/13/2011)
              We recommended that SSA verify that the Agency received all of the International Business
              Machines, Inc., (IBM) invoices, and then deobligate $28,958 of excess funds for the IBM contract
              that was obligated but not expended. The implemented value of this recommendation is $28,958.
              FOLLOW-UP. SUPPLEMENTAL SECURITY INCOME OVERPAYMENTS TO
              RECIPIENTS IN TITLE XIX INSTITUTIONS (a-08-10-10138, 7/11/2011)
              we recommended that SSA periodically monitor field offices’ timeliness in processing D8 diary
              alerts and provide training and/or additional oversight to those offices that have difficulty processing
              these alerts timely. The implemented value of this recommendation is $3,479,798.
              A D M I N I S T R AT I V E COSTS      CLAIMED                                        BY  THE
              N E VA D A        DISABILITY  D E T E R M I N AT I O N                                SERVICE
              (A-09-10-11090, 6/27/2011)
              We recommended that SSA ensure the Nevada Disability Determinations Services monitors and
              properly adjusts unliquidated obligations timely. The implemented value of this recommendation
              is $1,976,890.
              SUPPLEMENTAL SECURITY INCOME RECIPIENTS ELIGIBLE FOR VETERANS
              BENEFITS (A-01-09-19031, 1/6/2010)
              We recommended that SSA continue the efforts to work with the VA to ensure individuals who
              should be receiving VA benefits instead of Supplement Security Income (SSI) payments are, in
              fact, receiving VA benefits. The implemented value of this recommendation is $1,282,736,960 in
              questioned costs and $125,579,060 in funds put to better use.
              SUPPLEMENTAL SECURITY INCOME OVERPAYMENTS TO CONCURENT
              BENEFICIARIES RESULTING FROM INCORRECT BENEFIT CALCULATIONS (A-
              06-09-29103, 9/24/2009)
              We recommended that SSA review the 7,214 cases provided and take appropriate action to correct
              the errors and prevent future errors. The implemented value of this recommendation is $5,078,640.




46                                                                                         October 1, 2011 - March 31, 2012
                                                                                       Semiannual Report to Congress




      Appendix D. Significant Management Decisions
      With Which the Inspector General Disagrees
      CONTROLS OVER SOCIAL SECURITY INTERNET BENEFIT APPLICATIONS
      (LIMITED DISTRIBUTION) (A-09-11-21165, 12/7/2011)
      Results of Review: SSA’s Internet Claim (iClaim) application allows claimants to complete
      and electronically submit online applications for retirement, spousal, disability, or Medicare-
      only benefits. We found that SSA may not detect fraudulent iClaim applications submitted
      on behalf of another individual. We also found that SSA could take additional measures to
      enhance the integrity of the iClaim application. This report was issued Limited Distribution
      because it contains sensitive information regarding the online claims application process.
      Therefore, further details of our results are restricted to official use only.
      Recommendation: Use the Internet Protocol (IP) address information to identify iClaim
      applications filed from foreign countries for applicants who state they live in the United States.
      Agency Response: SSA disagreed with the recommendation. SSA believes using the IP address
      to determine an individual’s physical location is unreliable, as those with malicious intent
      can mask their IP address in a variety of ways to avoid detection. Of the 898,888 retirement
      iClaims reviewed, approximately .003 percent were filed from an international IP address.
      The Agency is unable to justify the cost to integrate an automated geo-location feature into
      iClaim for such a small percentage.
      OIG Response: SSA would not necessarily need to integrate an automated IP feature in the
      iClaim application; rather it could periodically identify the condition after the fact, as we did
      in our audit, for review and appropriate followup to verify their country of residence.
      THE SOCIAL SECURITY ADMINISTRATION’S ELECTRONIC SERVICES
      (A-14-11-11112, 10/28/2011)
      Results of Review: As of January 2011, SSA had 22 Internet-based electronic services available
      to the public. The Agency plans to improve its authentication process and release several other
      services. The Agency had a tactical plan to develop and implement electronic services in Fiscal
      Year 2011 but no documented electronic services strategic plan beyond 2011.
      To date, the marketing efforts for SSA’s electronic services have primarily been through
      television and radio public service announcements, public affairs specialists, and print ads
      amongst others. SSA began using social media in 2007 and expanded its efforts in March
      2010. The Agency can draw a cause and effect relationship between its electronic services
      marketing efforts and its online service use. However, SSA cannot demonstrate a cause
      and effect relationship between visitation to its social media sites and the number of online
      applications it receives.
      Recommendation: Develop a strategic plan for its electronic services that will contribute to
      SSA’s technology vision and customer service delivery goals.




October 1, 2011 - March 31, 2012                                                                                 47
Semiannual Report to Congress




               Agency Response: SSA disagreed with the recommendation stating the Agency’s commitment
               to electronic services is clear, as evidenced in the Agency Strategic Plan. However, SSA does
               not believe it is wise to commit to specific expansions or refinements of SSA’s electronic
               services in future years given the constantly evolving needs of the Agency and its customers.
               SSA continuously evaluates the satisfaction of its customers and its available resources, and
               adjusts Agency electronic service plans accordingly.
               OIG Response: We find it unusual that SSA responded in this manner since the Social
               Security Advisory Board recommended SSA develop a service delivery strategy that allows
               the public the option of interacting with the Agency in the way that best meets individuals’
               needs, in person, electronically, through the mail, or by telephone. In addition, the Future
               Systems Technology Advisory Panel recommended SSA move to an electronic customer
               self-service model with the goal of moving transactions to the Internet each year until 90
               percent of its business takes place online.
               Overall, we have stated in prior reviews the Agency lacks strategic planning for customer
               service and information technology (IT) processing needs. SSA does not have a long-
               term customer service delivery plan. We believe, as a part of its customer service delivery
               plan, the Agency should include a discussion of its future plans to develop and implement
               electronic services. As SSA implements solutions to address its customer service and IT
               processing requirements, it needs to have a more strategic and integrated approach to its
               planning efforts.




48                                                                                 October 1, 2011 - March 31, 2012
                                                                                                Semiannual Report to Congress




       Appendix E. Collections from Investigations and
       Audits
       The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report additional
       information concerning actual cumulative collections and offsets achieved as a result of OIG
       activities each semiannual period.

       Office of Investigations

                        Total Restitution Reported by DOJ as Collected for SSA

                                          Total Number of
                                                                        Court Ordered
                                        Individuals Assigned                                    Total Restitution
                     FY                                                 Restitution for
                                           Court Ordered                                        Collected by DOJ
                                                                         This Period
                                            Restitution
                    2010                           447                    $20,670,938              See Footnote1

                    2011                           550                    $26,408,142              See Footnote1

                   2012
                                                   292                    $17,970,789              See Footnote1
            (10/1/11 - 3/31/12)

                  TOTAL                           1,289                   $65,049,869              See Footnote1
       1
         DOJ migrated collection data to a new computer system and is working to generate reports that will provide us
       with this information.


                           Recovery Actions Based on OI Investigations

                                      Total Number of Recovery
                  FY                                                           Amount for Recovery
                                          Actions Initiated

                 2010                              1,128                             $36,431,093

                 2011                              1,310                             $45,989,019

                2012
                                                    689                              $26,325,718
         (10/1/11 - 3/31-12)

               TOTAL                               3,127                            $108,745,830




October 1, 2011 - March 31, 2012                                                                                          49
Semiannual Report to Congress




        Office of Audit
        The following chart summarizes SSA’s responses to our recommendations for the recovery or redirection of
        questioned and unsupported costs. This information is prepared in coordination with SSA’s management
        officials and was current as of March 31, 2012.
                                      SSA’s Responses to OIG’s Recommendations
                               Recovery or Redirection of Questioned and Unsupported Costs1
                    Reports with    Questioned/
                                                       Management       Amount Collected Amount Written-
          FY        Questioned      Unsupported                                                                      Balance2
                                                       Concurrence      or to be Recovered Off/Adjustments
                       Costs           Costs

          2010           21        $1,416,191,419     $1,415,034,260      $1,355,091,671          $21,327,969        $39,771,779


          2011           28        $1,587,604,454     $1,561,809,217         $46,708,910         $34,580,334      $1,506,315,210


          2012           14        $1,034,075,561          $4,368,854         $4,368,854        $282,961,935        $746,744,772


        TOTAL            63        $4,037,871,434     $2,981,212,331     $1,406,169,435        $338,870,238       $2,292,831,761

          1
              The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified by the OIG.
          2
              Balance = Questioned/Unsupported Costs - Amount Collected or to be Recovered - Amount Written-Off/Adjustments




50                                                                                              October 1, 2011 - March 31, 2012
                                                                                      Semiannual Report to Congress




      A P P E N D I X F. S i g n i f i c a n t M o n e ta r y
      Recommendations From Prior FYs for Which
      Corrective Actions Have Not Been Completed
      RECOVERY OF TITLE II PAYMENTS ISSUED AFTER BENEFICIARIES’
      DEATHS (A-09-10-11037, 1/4/2011)
      Results of Review: SSA needs to improve its controls and procedures to ensure that
      appropriate and timely actions are taken to recover payments issued after beneficiaries’
      deaths. Based on a random sample of 200 beneficiaries, we estimate about
      $18.8 million in payments after death was not recovered or properly resolved for approximately
      25,940 deceased beneficiaries, and
      $34.8 million in payments after death that had been recovered or properly resolved needed
      to be removed as overpayments from SSA’s records for approximately 17,520 deceased
      beneficiaries.
      Recommendation: SSA should evaluate the results of its corrective actions for the 68
      errors and determine whether the Agency should review the population of 6,486 deceased
      beneficiaries with payments after death.
      Agency Response: SSA agreed with the recommendation.
      Valued at $18,787,948 in questioned costs.
      Corrective Action: Based on the results of the review of the 68 errors, SSA determined that
      action on the population of 6,486 deceased beneficiaries is not necessary. SSA has a 3-year
      period to request a debit of an account for payments disbursed after death. If the Agency
      does not request the debit within 3 years, the request is rejected and not processed. This
      time has elapsed for many of these cases. It would not be cost effective to review over 6,000
      cases when SSA would only be able to recover limited money.
      DEDICATED ACCOUNT UNDERPAYMENTS PAYABLE TO CHILDREN (A-
      09-09-29110, 11/10/2010)
      Results of Review: SSA needs to improve controls to ensure it pays dedicated account
      underpayments to representative payees for the children in their care. Based on a random
      sample of 275 underpayments, we found SSA did not pay an estimated 7,775 underpayments
      totaling approximately $35 million. This included 3 organizational representative payees
      who did not establish dedicated accounts for $367,612 in underpayments for 47 children.
      Generally, this occurred because SSA did not have adequate controls to ensure that
      representative payees established dedicated accounts. In addition, SSA staff did not notify
      representative payees about the existence of underpayments that required the establishment
      of dedicated accounts, or adequately control the issuance of installment payments.




October 1, 2011 - March 31, 2012                                                                                51
Semiannual Report to Congress




                  Recommendation: Identify and take corrective action on the population of SSI recipients
                  who have dedicated account underpayments.
                  Agency Response: SSA agreed with the recommendation.
                  Valued at $34,229,920 in questioned costs.
                  Corrective Action: SSA may already be taking action independent of this audit on some
                  of these cases. To avoid duplicating SSA efforts, the Agency will initially identify and
                  take corrective actions for the population of SSI recipients who have dedicated account
                  underpayments pending for more than 1 year.
                  FEDERAL EMPLOYEES RECEIVING BOTH FEDERAL EMPLOYEES’
                  COMPENSATION ACT AND DISABILITY INSURANCE PAYMENTS (A-15-09-
                  19008, 10/14/2010)
                  Results of Review: We confirmed with SSA that improper payments resulted when recipients
                  whose Federal Employees’ Compensation Act (FECA) compensation was not recorded or
                  accounted for in the calculation of their Disability Insurance (DI) benefits. In addition, we
                  estimated improper payments that resulted when SSA did not take into account recipients’
                  FECA compensation in calculating their SSI payments. Based on our findings, we projected
                  approximately $43 million in estimated overpayments were paid to about 961 DI recipients for
                  whom SSA did not consider FECA compensation in the initial calculation of their benefits.
                  Furthermore, we estimate approximately $603,140 in overpayments was paid to about 80
                  SSI recipients whose FECA compensation was not initially accounted for in the calculation
                  of their payments.
                  Recommendation: Develop a computer matching agreement with Department of Labor to
                  identify possible DI and SSI claimants whose benefits do not reflect the FECA compensation
                  they received. A matching agreement will allow SSA to perform matching activities similar
                  to what we performed in this review and take appropriate action for recipients who have
                  overpayments that result from SSA not taking into account FECA compensation.
                  Agency Response: SSA agreed with the recommendation.
                  Valued at $43,991,444 in questioned costs.
                  Corrective Action: SSA is currently drafting a computer matching agreement for this purpose
                  and has started discussions with the Department of Labor (DOL). Under the agreement, SSA
                  will ask DOL‘s Office of Workers‘ Compensation Programs to “. . . disclose Federal employee
                  compensation benefit data to the Social Security Administration (SSA). The disclosure will
                  provide SSA with information necessary to verify the accuracy of payment eligibility factors
                  for the Supplemental Security Income (SSI) program … and the Title II disability insurance
                  program .…”
                  SSA determined that the legal authority to perform this computer match is included in the
                  Social Security Act. This agreement will also be governed by the Computer Matching Privacy
                  Protection Act of 1998 (CMPPA). Under CMPPA, SSA is required to have both agency’s




52                                                                               October 1, 2011 - March 31, 2012
                                                                                      Semiannual Report to Congress




    Data Integrity Boards approve the agreement, publish a Federal Register Notice, and in
    addition, send notification to OMB and Congress.
    BENEFITS PAYABLE TO CHILD BENEFICIARIES WHO NO LONGER NEED
    REPRESENTATIVE PAYEES (A-09-09-29116, 8/20/2010)
    Results of Review: SSA needed to improve controls to ensure child beneficiaries who attained
    age 18 were paid benefits that had been previously withheld pending the selection of a
    representative payee. Based on a random sample of beneficiaries, we found that SSA did not
    pay an estimated 13,464 beneficiaries approximately $31.2 million in withheld benefits.
    Generally, these errors occurred because SSA did not generate a systems alert to identify
    beneficiaries who should have been paid withheld benefits when they attained age 18 or SSA
    employees did not take corrective actions to pay withheld benefits when processing student
    awards when a child attained age 18.
    Recommendation: SSA should identify and take corrective action on the population of child
    beneficiaries over age 18 whose benefits were withheld pending the selection of a representative
    payee.
    Agency Response: SSA agreed with the recommendation.
    Valued at $31,052,839 in questioned costs.
    Corrective Action: SSA received permission from the Agency’s Office of Privacy and Disclosure
    on March 19, 2012 to use the W2-1040SE addresses to contact the individuals about possible
    underpayments. The 1040SE addresses will hopefully provide SSA with a productive way of
    reaching the individuals, many of whom terminated over 10 years ago. SSA’s Office of the
    Chief Actuary is now working to edit the W-2/1040SE file and complete the match against
    OIG’s list of SSNs.
    SSA is awaiting guidance from the Agency’s Office of Income Security Programs on certain
    policy questions related to this workload.
    RETROACTIVE TITLE II PAYMENTS TO RELEASED PRISONERS (A-06-08-
    38031, 7/14/2010)
    Results of Review: SSA issued improper or questionable retroactive payments to beneficiaries
    after their release from prison. About half the retroactive payment transactions of $10,000 or
    more we reviewed were either improper or issued without any explanation or justification being
    documented. SSA did not establish sufficient controls to ensure large retroactive payments to
    released prisoners were valid. Specifically, SSA payment systems allowed SSA personnel to
    compute and issue large retroactive payments without explanation or justification and without
    supervisory review. The lack of sufficient controls over these payments increased the potential
    for fraud, waste, or abuse.
    Based on our sample results, we estimate that SSA issued approximately $10.3 million in
    retroactive payments to prisoners that were either incorrect or could not be explained based
    on available documentation.




October 1, 2011 - March 31, 2012                                                                                53
Semiannual Report to Congress




                Recommendation: SSA should establish controls to ensure employees explain and justify
                large retroactive payments issued to released prisoners.
                Agency Response: SSA is in the midst of establishing a Prisoner Update Processing System
                (PUPS) remark screen establishing that it received proof of the beneficiary’s release from
                incarceration. SSA believes this action will satisfy the recommendation by documenting
                the rationale for reinstating benefits. SSA will add this new step as an instruction in its
                Program Operations Manual System..
                Valued at $6,468,914 in questioned costs.
                Corrective Action: Implementation of Recommendation 2 is tied to the implementation
                of Recommendation 3. Enhancements to the Prisoner Update Processing System (PUPS)
                screens are needed to force the user to document PUPS Remarks with the rationale for
                reinstating benefits when the reinstatement effective date is equal to or earlier than the
                confinement date or conviction date.
                FOLLOW-UP. THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS
                OVER SUSPENDING COLLECTION EFFORTS ON TITLE XVI OVERPAYMENTS
                (A-04-09-19039, 9/2/2009)
                Results of Review: We found that SSA took action on three of the recommendations in our
                prior report. However, funding limitations delayed development of an automated system
                that would address the two remaining recommendations. SSA’s corrective actions resulted
                in some improvements in the error rates we previously reported. However, we still found
                similar conditions identified in the prior report.
                We also found that SSA did not always (1) document the justification for the decisions to
                suspend overpayment collection efforts and (2) obtain the required management approval
                before suspending an overpayment. On occasion, SSA personnel suspended collection
                efforts when debtors or the debtors’ representative payees had reported earnings that may
                have enabled some repayment. Also, SSA personnel suspended collections of some debts
                and classified the debtors as unable to locate or out of the country even though we did
                not find evidence that SSA attempted to contact the debtors or the debtors’ representative
                payees through their current employer. Overall, we estimated for 6,500 cases, totaling
                $52.2 million, SSA personnel did not follow policies and procedures when it suspended
                overpayment collection efforts.
                Recommendation: SSA should consider revising the May 2009 policy to require the 2-PIN
                process (management approval) for suspension decisions controlled by the Recovery and
                Collection of Overpayment Process.
                Valued at $22,639,420 in funds put to better use.
                Agency Response: SSA agreed with the recommendation.
                Corrective Action: SSA discussed the feasibility of a 2-pin process for suspension decisions
                controlled by the Recovery and Collection of Overpayments System with the Agency’s
                Office of Systems. Through those discussions, SSA determined that the 2-pin process is




54                                                                                October 1, 2011 - March 31, 2012
                                                                                      Semiannual Report to Congress




      feasible but due to Office of Systems resources, the Agency is not sure when this process can
      be implemented but will continue to follow up with the Office of Systems.
      FOLLOW-UP ON DISABLED TITLE II BENEFICIARIES WITH EARNINGS
      REPORTED ON THE MASTER EARNINGS FILE (A-01-08-28075, 4/15/2009)
      Results of Review: Our audit found that the Agency made efforts to reduce overpayments
      resulting from work activity. However, we found that SSA did not evaluate all earnings, and
      as a result, overpayments resulted from work activity.
      Based on our review, we estimate that approximately $3.1 billion was overpaid to
      about 173,000 disabled beneficiaries because of work activity. Although SSA identified
      about 58 percent of these overpayments, we estimate the remaining 42 percent—
      approximately $1.3 billion—went undetected by the Agency to about 49,000 disabled
      beneficiaries. In addition, we estimate SSA will continue to incorrectly pay about
      $382 million over the next 12 months to individuals who are no longer entitled to disability
      benefits if action is not taken by the Agency.
      SSA performed 170,664 work-related CDRs in 2008 at a unit cost of $397.45. Based on
      our review, we estimate about $3.1 billion was overpaid to approximately 173,000 disabled
      beneficiaries (out of 518,080 in the estimated universe) because of work activity. To perform
      work-related CDRs for all 518,080 disabled beneficiaries, it would cost SSA about $206
      million (assuming the $397.45 unit cost remains the same). This results in a potential benefit-
      cost ratio of $15.0 to $1.0.
      We recognize SSA’s efforts to improve the work-related CDR process. In addition, we
      acknowledge the Agency’s limited resources with which to perform this workload. However,
      we believe SSA may achieve greater savings in the long-term if the Agency could provide
      the resources to perform work-related CDRs for all disabled beneficiaries with substantial
      earnings reported on the Master Earnings File.
      Recommendation: SSA should develop and implement a plan to allocate more resources to
      timely perform work-related continuing disability reviews—and assess overpayments resulting
      from work activity—for cases identified by the Agency’s earnings enforcement process.
      Valued at $1,335,815,580 in questioned costs and $381,563,100 in funds put to better use.
      Agency Response: SSA agreed with the recommendation.
      Corrective Action: SSA made the following improvements to the Agency’s work-related
      continuing disability review (CDR) processes and management information.
      - SSA established a dedicated staff, which targets the oldest cases.
      - SSA now prioritizes enforcement alerts (for cases with unreported earnings) by the amount
      of earnings. SSA works the cases with highest earnings first to minimize overpayments.
      - SSA improved communications between its field offices and processing centers for priority
      cases that must be transferred between components.




October 1, 2011 - March 31, 2012                                                                                55
Semiannual Report to Congress




                 - SSA established an Agency standard report for work CDR management information and
                 overpayments. It is currently in the final stages of validation.
                 - SSA is establishing streamlined earnings reporting processes via telephone and Internet.
                 In addition, as recommended by the Government Accountability Office, SSA is evaluating
                 the feasibility of:
                 - Periodically matching disability beneficiaries and recipients to Federal payroll data.
                 - Using the Automated Earnings Reappraisal Operation to identify individuals who have
                 returned to work.


                 Significant Monetary Recommendations From Prior
                 Semiannual Report to Congress for Which Recent
                 Corrective Actions Have Been Made
                 S U P P L E M E N TA L                       S E C U R I T Y                  I N C O M E
                 RECIPIENTS           ELIGIBLE                FOR     VETERANS                  BENEFITS
                 (A-01-09-19031, 1/6/2010)
                 Results of Review: We found that some Supplemental Security Income (SSI) recipients
                 appeared potentially eligible for Department of Veterans Affairs (VA) benefits instead of SSI
                 payments. Based on our review, we estimate SSA paid about $1.3 billion to approximately
                 22,000 SSI recipients who appeared to meet the VA requirements for benefits. In addition,
                 we estimate that SSA will continue to pay about $126 million in SSI payments over the next
                 12 months to individuals who appeared eligible for VA benefits instead of SSI payments.
                 For example, in one case, a disabled SSI recipient had military earnings during the Vietnam
                 era. This recipient served in the Army from October 1968 to July 1970 for approximately 640
                 days—with at least 1 day during wartime—and received an honorable discharge from the
                 military. Therefore, he appeared to meet VA’s requirements for benefits and received about
                 $104,000 in SSI payments from January 1993 to June 2009. According to SSA’s systems, there
                 was no indication this individual had applied for VA benefits.
                 VA benefits are generally of greater monetary value than SSI payments—so it is usually more
                 advantageous for the individuals to receive VA benefits. Specifically, in Fiscal Year 2007, the
                 average monthly VA benefit was $709, whereas the average monthly SSI payment was $468.
                 Therefore, if these individuals are in fact eligible for VA benefits, they could receive higher
                 monthly benefit payments.
                 Recommendation: SSA should continue the efforts to work with the VA to ensure individuals
                 who should be receiving VA benefits instead of SSI payments are, in fact, receiving VA benefits.
                 Agency Response: SSA agreed with the recommendation.
                 Valued at $1,282,736,960 in questioned costs and $125,579,060 in funds put to better use.




56                                                                                 October 1, 2011 - March 31, 2012
                                                                                      Semiannual Report to Congress




     Corrective Action: SSA will continue to work with the VA to identify SSI recipients who
     may be eligible for VA benefits. In addition, SSA will ensure that those SSI recipients who
     are eligible for VA benefits take the necessary actions to apply and receive VA benefits.
     SUPPLEMENTAL SECURITY INCOME OVERPAYMENTS TO CONCURRENT
     BENEFICIARIES RESULTING FROM INCORRECT BENEFIT CALCULATIONS
     (A-06-09-29103, 9/24/2009)
     Results of Review: In March 2009, we identified 338 concurrent beneficiaries from 1 of 20
     payment record segments, who received excessive SSI payments because SSA erroneously
     offset their SSI payment using Old-Age, Survivors and Disability Insurance (OASDI) benefit
     amounts that were not adjusted to reflect recent benefit payment increases. SSA overpaid these
     beneficiaries $18,604 per month in Federal SSI payments and another $2,557 per month in
     State supplemental benefits as a result of these errors. Most of these errors involved instances
     where SSA was collecting OASDI overpayments from the beneficiaries. A specific systems
     input associated with these payments unintentionally froze the OASDI benefit amounts used
     in the SSI unearned income offset computations. Based on our audit results, we estimate SSA
     issued overpayments to approximately 6,800 concurrently entitled beneficiaries because SSA
     erroneously offset their SSI payments using OASDI benefit amounts that were not adjusted
     to reflect recent benefit payment increases. If these errors are not corrected, we estimate that
     SSA will issue approximately $5.1 million in excessive SSI payments to these beneficiaries
     over the next 12 months.
     Recommendation: SSA should review the 7,214 cases provided and take appropriate action
     to correct the errors and prevent future errors.
     Valued at: $5,078,640 in funds put to better use.
     Agency Response: SSA agreed with the recommendation.
     Corrective Action: SSA performed a special cleanup operation, which corrected the payment
     errors on these records.




October 1, 2011 - March 31, 2012                                                                                57
Semiannual Report to Congress




                 A PPENDI X G. Significant Non-Monetary
                 Recommendations From Prior FYs for Which
                 Corrective Actions Have Not Been Completed
                 IMPACT OF ALIEN NONPAYMENT PROVISIONS ON FIELD OFFICES ALONG
                 THE MEXICAN BORDER (A-08-10-20140, 2/15/11)
                 Results of Review: While we recognize current law requires that alien nonpayment provisions
                 (ANP) beneficiaries routinely visit the United States to maintain their benefits, we believe this
                 practice has a significant impact on some field offices along the Mexican border. For example,
                 we found that over 1,000 ANP beneficiaries visit some field offices monthly to establish
                 presence in the United States. Providing services to such a large volume of beneficiaries
                 increases workload; adds to wait times; and, during high traffic days, results in some office
                 space issues. Furthermore, field office personnel at each office we visited told us the number of
                 ANP beneficiaries is increasing. For these reasons, some field office personnel we interviewed
                 questioned the need for ANP beneficiaries to routinely visit field offices.
                 Recommendation: Continue to work with the Department of Homeland Security (DHS)
                 to verify the identities of ANP beneficiaries at the border. To ensure consistency, we believe
                 SSA should consider developing model language for field offices to use when establishing
                 agreements with DHS. Once implemented, field office personnel should monitor the identity
                 verification process to ensure that DHS personnel are complying with SSA policies and
                 procedures.
                 Agency Response: SSA agreed with the recommendation.
                 Corrective Action: SSA agreed that its Biometric Identity Proofing Workgroup should
                 continue to work with DHS to explore DHS’ biometric technology options to develop
                 pilot projects to help SSA identify the best approaches to servicing ANP beneficiaries. In
                 addition, where SSA has informal partnerships with DHS at the local level, the Agency will
                 develop formal interagency agreements that document both agencies’ roles and responsibilities,
                 including any funding requirements. SSA will also establish a process to monitor DHS
                 compliance with the provisions of the interagency agreements.
                 OFFICE          OF      DISABILITY A D J U D I C AT I O N AND
                 REVIEW            HEARING       REQUESTS          DISMISSALS
                 (A-07-10-20171, 12/14/10)
                 Results of Review: We found that there were areas where improvements could be made for
                 dismissing hearing requests.
                 -For untimely hearing requests, our review disclosed cases where dismissals were not (1)
                 appropriate, (2) supported by the Office of Disability Adjudication and Review (ODAR)
                 requests for claimants’ explanations for untimely filing, (3) supported by an ALJ rationale, or
                 (4) processed timely.




58                                                                                 October 1, 2011 - March 31, 2012
                                                                                     Semiannual Report to Congress




     -For abandonment dismissals, we found cases where the dismissals were issued without the
     necessary attempts to contact claimants documented in the case folders.
     -For withdrawal dismissals, we found one case where the claimant’s case folder did not
     contain evidence the claimant or the claimant’s representative requested the hearing request
     be withdrawn.
     In addition, our analysis of dismissal rates identified wide variances among ODAR regions,
     hearing offices, and ALJs.
     Recommendation: Determine whether factors are present that explain variances in dismissal
     rates among the Office of Disability Adjudication and Review’s regions, hearing offices, and
     ALJs.
     Agency Response: SSA agreed with the recommendation.
     Corrective Action: SSA is studying Administrative Law Judge (ALJ) dispositions. The
     Agency’s Office of Quality Performance is completing a study on dismissal. SSA will draw
     samples and review dispositions at the national and regional level, but not at the ALJ level.
     In addition, SSA’s Office of Appellate Operations, which supports its Appeals Council (AC),
     is collecting structured data regarding each case the AC reviews, including data on dismissals.
     The Office of Appellate Operations’ Division of Quality is considering whether to conduct a
     study on dismissals but has not yet decided whether to proceed with that initiative.
     Irrespective of any studies SSA may do, it is important to understand that many factors drive
     variances. These factors, many outside of an ALJ’s control, may include the number of claims
     filed, the number of informal remands granted by the State agency, and workload transfers
     between regions. Demographics and economic factors also affect the number and type of
     claims filed, which ultimately can affect dismissal rates.
     DISABILITY IMPAIRMENTS ON CASES MOST FREQUENTLY DENIED
     BY DISABILITY DETERMINATION SERVICES AND SUBSEQUENTLY
     ALLOWED BY ADMINISTRATIVE LAW JUDGES (A-07-09-19083, 8/20/2010)
     Results of Review: We identified the four impairments that were most often denied by DDSs
     in Calendar Years 2004 through 2006, appealed to the hearing level, and subsequently allowed.
     These impairments were Disorders of Back; Osteoarthrosis and Allied Disorders; Diabetes
     Mellitus; and Disorders of Muscle, Ligament, and Fascia. Our analysis of cases with these
     four impairments disclosed:
     -Claimant age impacted disability determinations.
     -Determinations of claimants’ ability to work resulted in differences at the DDS and hearing
     levels.
     -Claimant representation was more prevalent in cases allowed at the hearing level than in
     cases decided at the DDS level.




October 1, 2011 - March 31, 2012                                                                               59
Semiannual Report to Congress




                 -Cases were allowed at the hearing level based on a different impairment than that on which
                 the DDS made its determination.
                 •	     States had both DDS denial rates and hearing level allowance rates above the
                 	      national averages.
                 •	     ODAR regions, hearing offices, and ALJs had wide variations in allowance rates.
                 Recommendation: SSA should consider analyzing variances between the hearing offices and
                 administrative law judges with high and low allowance rates for the four impairments we
                 analyzed to determine whether factors are present that support the variances.
                 Agency Response: SSA agreed with the recommendation.
                 Corrective Action: The Office of Appellate Operations (OAO) has not issued a report on its
                 quality review of unappealed fully and partially favorable hearing decisions.
                 Rather, OAO is currently compiling the data derived from its review. Projected finalization
                 of the report is by the end of Calendar Year 2012.
                 FOLLOW-UP OF PENDING WORKERS’ COMPENSATION (A-08-09-19167,
                 7/12/2010)
                 Results of Review: SSA had not taken corrective actions to address recommendations
                 in our September 2005 report. Specifically, SSA had not (1) followed through with
                 steps to reduce its backlog of Title II disability cases having pending Workers‘
                 Compensation (WC) claims; (2) developed and implemented an automated process
                 to ensure it systematically and routinely follows up on new pending WC cases; or
                 (3) explored systems enhancements that would detect situations in which WC is not applicable
                 to prevent personnel from retrieving and analyzing cases that no longer require development.
                 As a result, the volume of cases with WC claims pending for 2 or more years increased from
                 227,615 in January 2005 to 268,825 in November 2009, an 18-percent increase over the past
                 4 years. In addition, we estimated SSA had overpaid Title II beneficiaries between $44 and
                 $58 million because of unreported WC payments since our June 2003 report.
                 Recommendation: SSA should explore systems enhancements that would detect situations
                 in which WC is not applicable to prevent personnel from retrieving and analyzing cases that
                 no longer require development.
                 Agency Response: SSA agreed with the recommendation.
                 Corrective Action: There is no legal requirement that States report WC benefit information
                 to SSA. Therefore, SSA must rely on the disabled worker, the worker’s attorney, or other
                 outside sources to obtain WC verification. However, SSA continues to propose legislation
                 mandating State reporting. In addition, SSA is currently in negotiations with other federal
                 agencies to establish data matches to obtain federal WC benefit information on disabled
                 workers who also receive Title II benefits.




60                                                                              October 1, 2011 - March 31, 2012
                                                                                       Semiannual Report to Congress




    Significant Non-Monetary Recommendations From
    Prior Semiannual Report to Congress for Which
    Recent Corrective Action Has Been Made
    DISABILITY IMPAIRMENTS ON CASES MOST FREQUENTLY DENIED BY
    DISABILITY DETERMINATION SERVICES AND SUBSEQUENTLY ALLOWED
    BY ADMINISTRATIVE LAW JUDGES (A-07-09-19083, 8/20/2010)
    Recommendation: SSA should consider conducting a targeted review of disability determinations
    made in the six states we identified as having higher than average disability DDS denial rates
    and hearing level allowance rates for the four impairments we analyzed.
    Agency Response: SSA agreed with the recommendation.
    Corrective Action: SSA’s Office of Quality Performance (OQP) reviewed the findings of the
    audit by the OIG on DDS denial determinations and allowance rates at the Administrative
    Law Judge (ALJ) level (Fiscal Years 2004-2006).
    In response to the aforementioned report, OQP compiled data from SSA review samples to
    assess whether our findings were comparable with those of the OIG audit. Specifically, SSA
    looked at initial-level DDS denials and reconsideration affirmations reviewed by OQP (i.e., 	
    Quality Assurance (QA) initial denials, QA reconsideration affirmations, Random Denial
    Reviews and Targeted Denial Reviews). SSA compared data from the six states identified in
    the OIG report to all Sates, for the FY 2004 through FY 2006 as well as the latest full 3-year
    report periods (FY 2008 through FY 2010).
    In addition to gathering data, SSA also had the OQP statistician review the data. The statistician
    concluded that the volume of cases in each sample when broken out by state and impairment
    was too limited to draw any valid conclusions. OAO is also reviewing the problems that OIG
    summarizes in the study but their report will not be available until later this year. If the sample
    size is too limited to make a valid conclusion in the study from OIG, then this may influence
    the OAO report as well. In any event, SSA combined data for the six states for each of the
    four impairments and compared them to the national returns rates for those same impairments.
    The data reveals that these states generally, in the random samples, contained lower substantive
    (Group I) error rates than the national average. The OIG findings of high ALJ allowance rates
    for these impairments implies that the DDSs may have made bad denial determinations in
    these cases. However, SSA’s very limited data on these four impairments does not support this
    implication.
    There is not sufficient information from any SSA samples for analyses to conclude why these
    impairments have a higher allowance rate at the hearing level. However, SSA contends that
    there are multiple factors that could account for the high allowance rates at the ALJ level.




October 1, 2011 - March 31, 2012                                                                                 61
Semiannual Report to Congress




APPENDIX H: Office of the Inspector General
Peer Reviews
Office of Investigations
• Our Office of Investigations is required to undergo a peer review every three years to ensure
general and qualitative standards comply with the requirements of the Quality Standards for
Investigations adopted by the CIGIE. The peer review also ascertains whether adequate internal
safeguards and management procedures exist to ensure that the law enforcement powers conferred
by the 2002 amendments to the Inspector General Act are properly exercised pursuant to Section
6(e) of the Inspector General Act (as amended) and the United States Attorney General Guidelines
for Offices of Inspector General with Statutory Law Enforcement Authority.
• In November 2010, the U.S Postal Service Office of Inspector General (USPS/OIG) notified
us that our Office of Investigations passed the peer review. In the opinion of the USPS/OIG, the
system of internal safeguards and management procedures for the investigative function of SSA/
OIG in effect for the year ending June 30, 2010, complied with the quality standards established
by the Council of the Inspectors General on Integrity and Efficiency (CIGIE) and the Attorney
General Guidelines for Offices of Inspector General with Statutory Law Enforcement Authority.
• OQPAR, on behalf of OI, initiated a peer review of the Treasury Inspector General for Tax
Administration (TIGTA) in September 2011. In November 2011, we notified TIGTA that
they passed the peer review. In the opinion of the OIG, the system of internal safeguards and
management procedures for the investigative function of TIGTA in effect for the year ending June
30, 2011,complied with the quality standards established by CIGIE and the Attorney General
Guidelines for Offices of Inspector General with Statutory Law Enforcement Authority.
• There are no outstanding recommendations from prior investigative peer reviews completed by
us or from prior reviews of our organization.


Office of Audit
• Our Office of Audit is required to undergo a peer review every three years, in accordance with
generally accepted government auditing standards. • The final System Review Report related to our
last peer review, conducted by the Department of Justice OIG, was issued in November 2009. We
received a rating of pass, which means that the review team concluded that the system of quality
control for the audit organization had been suitably designed and complied with to provide us
with reasonable assurance of performing and reporting in conformity with applicable professional
standards in all material respects. The Department of Justice OIG identified no deficiencies that
affected the nature of the report. Further, there were no findings or recommendations as a result
of this peer review.
• During FY 2010, we conducted a peer review of the Department of Energy OIG, Office of
Audit Services. We issued our report on March 5, 2010 and made no recommendations as a
result of this peer review.
• There are no outstanding recommendations from prior audit peer reviews completed by us or
from prior reviews of our organization.

62                                                                                October 1, 2011 - March 31, 2012
                                                                                Semiannual Report to Congress




       Glossary of Acronyms (Continued)
        AC                Appeals Council
        ALJ               Administrative Law Judge
        ANP               Alien Nonpayment Provisions
        CDI               Cooperative Disability Investigative
        CDR               Continuing Disability Review
        CIGIE             Council of Inspectors General on Integrity and Efficiency
        CMP               Civil Monetary Penalty
        CMPPA             Computer Matching Privacy Protection Act of 1998
        COO               Chief Operating Officer
        DDD               Division of Disability Determination
        DDS               Disability Determination Services
        DHS               Department of Homeland Security
        DI                Disability Insurance
        DMF               Death Master File
        DOJ               Department of Justice
        DOL               Department of Labor
        ERP               Economic Recovery Payments
        FBI               Federal Bureau of Investigations
        FECA              Federal Employees’ Compensation Act
        FPS               Federal Protective Service
        FY                Fiscal Year
        GPO               Government Pension Offset
        HIT               Health Information Technology
        IBM               International Business Machines, Inc.
        iClaim            Internet Claim
        IO                Immediate Office
        IP                Internet Protocol
        IRS               Internal Revenue Service
        IT                Information Technology
        LCF               Lovelace Clinic Foundation




October 1, 2011 - March 31, 2012                                                                          63
Semiannual Report to Congress




             Glossary of Acronyms
              MBR               Master Beneficiary Record
              MoU               Memorandum of Understanding
              NCC               National Computer Center
              OA                Office of Audit
              OAO               Office of Appellate Operations
              OASDI             Old-Age, Survivors, and Disability Insurance
              OCIG              Office of the Counsel to the Inspector General
              ODAR              Office of Disability Adjudication and Review
              OER               Office of External Relations
              OI                Office of Investigations
              OIG               Office of the Inspector General
              OMB               Office of Management and Budget
              OPM               Office of Personnel Management
              OQAPR             Office of Quality Assurance and Professional Responsibility
              OQP               Office of Quality Performance
              OTRM              Office of Technology and Resource Management
              PII               Personally Identifiable Information
              PTSD              Post-Traumatic Stress Disorder
              PUPS              Prisoner Update Processing System
              QA                Quality Assurance
              Recovery Act      American Recovery and Reinvestment Act of 2009
              SAC               Special Agent-in-Charge
              SGA               Substantial Gainful Activity
              SSA               Social Security Administration
              SSI               Supplemental Security Income
              SSN               Social Security Number
              the Act           Social Security Act
              VA                Department of Veterans Affairs
              WC                Workers’ Compensation
              WEP               Windfall Elimination Provision




64                                                                               October 1, 2011 - March 31, 2012
